Report No: D-2007-063       March 1, 2007




    Agreed-Upon Procedures Covering
        the Financial Reporting for
          Nonappropriated Fund
  Instrumentalities and Related Activities
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Department of
 Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
 Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
 (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Office of the Deputy
 Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

AAFES                Army and Air Force Exchange Service
CFSC                 Community and Family Support Center
CIP                  Construction-in-progress
CNIC                 Commander, Navy Installations Command
DFAS                 Defense Finance and Accounting Services
OIG                  Office of Inspector General
FASAB                Federal Accounting Standards Advisory Board
FMR                  Financial Management Regulation
GAAP                 Generally Accepted Accounting Principles
GAGAS                Generally Accepted Government Auditing Standards
GLAC                 General Ledger Account Code
MCCS                 Marine Corps Community Services
MWR                  Morale, Welfare, and Recreation
NAFI                 Nonappropriated Fund Instrumentalities
OUSD(C)/CFO          Office of the Under Secretary of Defense (Comptroller)/Chief
                        Financial Officer
RAMCAS               Recreation and Mess Central Accounting System
SAFIS                Services Agency Financial Information System
SFFAS                Statement of Federal Financial Accounting Standards
SOW                  Statement of Work
                                     INSPECTOR GENERAL

                                    DEPARTMENT OF DEFENSE

                                     400 ARMY NAVY DRIVE

                                ARLINGTON, VIRGINIA 22202-4704


                                                                           MAR 01 2007

MEMORANDUM FOR PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE
                 FOR PERSONNEL AND READINESS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER

SUBJECT:	 Report on the Agreed-Upon Procedures Covering the Financial Reporting
          for Nonappropriated Fund Instrumentalities and Related Activities
          (Report No. D-2007-063)


         We are providing this report for your information and use. No written response to
this report was required, and none was received. Therefore, we are publishing this report
in final form.

        We appreciate the courtesies extended to the staff. Questions should be directed
to me at (703) 325-5782 (DSN 221-5782) or Mr. Joseph Guba at (703) 325-0433
(DSN 221-0433). The team members are listed inside the back cover. See Appendix F
for the report distribution.

                             By direction of the Assistant Inspector General for Auditing:




                                        ~:k::::::
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
                  Department of Defense Office of Inspector General
Report No. D-2007-063                                                                    March 1, 2007
    (Project No. D2006-D000FH-0120.000)

             Agreed-Upon Procedures Covering the Financial Reporting for
             Nonappropriated Fund Instrumentalities and Related Activities


                                      Executive Summary

Who Should Read This Report and Why? This report is intended solely for use by
officials in the Office of the Principal Deputy Under Secretary of Defense for Personnel
and Readiness (Policy Office) and officials in the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer (OUSD[C]/CFO). The report discusses
the results of the procedures that auditors in the DoD Office of Inspector General
performed as agreed upon with the Principal Deputy Under Secretary of Defense for
Personnel and Readiness.

Background. According to DoD Instruction 1015.14, “Establishment, Management, and
Control of Nonappropriated Fund Instrumentalities and Financial Management of
Supporting Resources,” November 22, 2005, the Policy Office “shall develop,
promulgate, and monitor compliance with policy and other guidance to determine proper
administration of Nonappropriated Fund Instrumentalities (NAFIs) and management of
their resources.” The Policy Office performs an annual review of the NAFI consolidated
Program Group 1 financial statements (Report) 2 forwarded to their office by the Military
Services. During the review of the FY 2004 Reports, the Policy Office discovered
accounting discrepancies including unreconcilable equity transfers between headquarters
and field activities, noncompliance with DoD accounting policy for NAFI construction-
in-progress, and prior-period adjustments. Based on the Policy Office findings and in
response to the President’s Management Agenda of establishing a goal of achieving an
unqualified audit opinion, the Policy Office took the initiative to achieve the same for the
NAFI Program Groups under their purview. The Policy Office requested that auditors in
the DoD Office of the Inspector General perform procedures to review the financial
reporting practices for NAFI. The procedures reviewed four primary areas: DoD
policies, accounting for construction-in-progress, eliminating entry transactions between
headquarters and installations or regions and between headquarters funds, and prior-
period adjustments. This report discusses the agreed-upon procedures, auditor actions,
and the results of our review of NAFI financial reporting practices.

Results. DoD policy needs to be changed to improve clarity and to assist the NAFIs in
uniformly applying generally accepted accounting principles. See Appendix D for the
suggested changes to DoD regulations, directives, and instructions for which the Policy

1
 DoD Instruction 1015.14 paragraph 4.3 provides that DoD programs or activities and their supporting
NAFIs are classified into one of six Program Groups which are Military Morale, Welfare, and Recreation,
Armed Services Exchange Programs, Civilian Military Morale, Welfare, and Recreation, Lodging
Program, Supplemental Mission Funds, and Special Purpose Central Funds.
2
The Military Services refer to these Reports as 1015.15 submissions, so for the purposes of this report, we
will refer to these documents as Reports.
Office is responsible. See Appendix E for the suggested changes to policy for which
OUSD(C)/CFO is responsible.

The Army was not accounting for construction-in-progress as an asset, but was expensing
the costs instead. After our review, the Army chose to change its construction-in-
progress accounting policy and capitalize the costs incurred. Consequently, the Army
proposed to record an adjusting entry with an estimated value of $135 million and to
reverse the expensed amount for the active construction projects. The overall policies
and procedures of the Navy, Air Force, and Marine Corps for construction-in-progress
complied with generally accepted accounting principles and were consistent with
established DoD policies. However, our review of prior audit coverage performed by
entities other than the DoD Office of Inspector General documented numerous audit
findings that reflect the failure of the Military Services to follow that guidance.

In FY 2005, with the exception of the Army and Marine Corps, the Military Services
followed generally accepted accounting principles for eliminating entry transactions
between headquarters and installations or regions and between headquarters funds. The
Army could not provide appropriate documentation to support its transactions as
requested, and the Marine Corps had an unusually large number of journal entries
indicating a failure to accrue financial transactions during the current period. The Marine
Corps’ financial management practice indicates the use of a modified cash basis method
of accounting, which is not in accordance with generally accepted accounting principles.

For prior-period adjustments (equity transactions), in some cases, the Reports properly
disclosed the material adjustments submitted to the Policy Office, but the Army, Navy,
and Marine Corps are distorting their income statements by charging current year
operating expenses to equity. In addition, the Military Services did not comply with DoD
Instruction 1015.15, “Procedures for Establishment, Management, and Control of
Nonappropriated Fund Instrumentalities and Financial Management of Supporting
Resources,” May 25, 2005, paragraph 5.4.2.4, which establishes allowable equity
transactions (prior-period adjustments).

Management Comments. We provided a draft report on December 15, 2006. No
written response to this report was required. No management comments were received.




                                             ii
Table of Contents

Executive Summary                                                        i

Independent Auditor’s Report
     Overview                                                            1
     Agreed-Upon Procedures, Auditor Actions, and Results               11

Appendixes
     A. Scope and Methodology                                           16
     B. Prior Coverage                                                  18
     C. Other Matters of Interest                                       21
     D. Memorandum to Principal Deputy Under Secretary of Defense for
          Personnel and Readiness                                       28
     E. Memorandum to Under Secretary of Defense (Comptroller)/Chief
          Financial Officer                                             49
     F. Report Distribution                                             68
________________________________________________________________________
                       Independent Auditor’s Report
                                            Overview
           DoD Instruction 1015.14, “Establishment, Management and Control of
           Nonappropriated Fund Instrumentalities and Financial Management of Supporting
           Resources,” November 22, 2005, paragraph 5.2, places the Principal Deputy
           Under Secretary of Defense for Personnel and Readiness (Policy Office 3 )
           responsible for nonappropriated fund policy and DoD Military and Civilian
           Morale, Welfare, and Recreation (MWR) programs, military exchange services,
           and other authorized Nonappropriated Fund Instrumentalities and Related
           Activities (NAFIs). Further, DoD Instruction 1015.14, paragraph 5.2.1, states
           that the Policy Office is responsible for developing, promulgating, and monitoring
           compliance with policy and other guidance to determine proper administration of
           NAFIs and management of their resources.

           The Policy Office performs an annual review of the NAFI consolidated Program
           Group financial statements (Report) 4 forwarded to their office by the Military
           Services. DoD Instruction 1015.15 “Procedures for Establishment, Management,
           and Control of Nonappropriated Fund Instrumentalities and Financial
           Management of Supporting Resources,” May 25, 2005, required the Military
           Services to file these submissions with the Policy Office. During the review of
           the FY 2004 Reports, the Policy Office discovered accounting discrepancies
           including unreconcilable equity transfers between headquarters and field
           activities, noncompliance with DoD accounting policy for NAFI construction-in-
           progress, and prior-period adjustments. In response to the President’s
           Management Agenda, the Policy Office established a goal of achieving an
           unqualified audit opinion for their NAFI Program Groups. The Policy Office
           requested that auditors in the DoD Office of Inspector General (DoD OIG)
           perform agreed-upon procedures to review the financial reporting practices for
           NAFI. The agreed-upon procedures included four primary areas: DoD policies,
           accounting for CIP, eliminating entry transactions between headquarters and
           installations or regions and between headquarters funds and prior-period
           adjustments. This report discusses the agreed-upon procedures, auditor actions,

3
    DoD instructions use the acronym PDUSD(P&R) as the official acronym for the Policy Office.
4
 DoD Instruction 1015.15, “Procedures for Establishment, Management, and Control of Nonappropriated
Fund Instrumentalities and Financial Management of Supporting Resources,” May 25, 2005, paragraph
5.5.2 states the following: “A consolidated financial and management report shall be prepared annually for
each Military Service, and Joint Service NAFI. Each consolidated report shall contain the financial
statements and reports specified at enclosure 7. Ten copies of the annual report shall be submitted to the
PDUSD(P&R) within 120 days following the close of the Program Group fiscal year. The reports shall be
based on or be the basis of annual financial statements that comply with the audit requirements of DoD
Instruction 7600.6…”




                                                     1
    and the results of those actions used to review the financial reporting practices of
    the NAFIs.

    The agreed-upon procedures limited our scope to procedures that did not include
    tests of the management controls. The sufficiency of these procedures is solely
    the responsibility of the Policy Office officials. Therefore, we make no
    representation regarding the sufficiency of the procedures.

    The Policy Office did not engage us to perform, and we did not perform, an
    examination, the objective of which would have been to express an opinion on the
    data collection methodology or the accuracy of the data collected. Accordingly,
    we do not express such an opinion. If we had performed additional procedures,
    other reportable conditions might have come to our attention that we would have
    reported to the Policy Office. We implemented the agreed-upon procedures in
    accordance with generally accepted government auditing standards (GAGAS) and
    attestation standards established by the American Institute of Certified Public
    Accountants as of August 4, 2006.


Program Groups in the NAFI Financial Statements
    To accomplish the review, we established our universe as the Nonappropriated
    Fund’s six Program Groups as defined by DoD Instruction 1015.14,
    paragraph 4.3. The Program Groups included:

           •   Military MWR Programs,

           •   Armed Services Exchange Services Programs (Exchange),

           •   Civilian MWR Programs,

           •   Lodging Program Supplemental Mission Funds,

           •   Supplemental Mission Funds, and
           •   Special Purpose Central Funds.

    To evaluate the completeness of our universe and compliance with DoD
    guidance, we followed the requirements identified in DoD Instruction 1015.15
    and DoD Instruction 1015.14.


DoD Accounting Policy Review
    We reviewed the laws, standards, DoD regulations, directives, and instructions
    that affect financial reporting and the ability of DoD NAFI to obtain an
    unqualified opinion on their Component-level, consolidated Program Group
    financial statement for the six Program Groups. We suggested changes to DoD
    regulations, directives, and instructions that should improve financial reporting
    and assist the Military Services in obtaining an unqualified audit opinion on their
    consolidated financial statements for the Program Groups. See Appendix D and


                                          2
       Appendix E for our suggested changes to policy.


Accounting for Construction-in-Progress
       According to generally accepted accounting principles (GAAP) and DoD
       7000.14, “Financial Management Regulation” (FMR) volume 13,
       Nonappropriated Funds Policy and Procedures, chapter 3, Assets” August 1994,
       the CIP account is used to accumulate all qualified, capitalized construction costs
       until asset completion. On the completion of the asset, the entity transfers the CIP
       account balance to the proper fixed asset account. The Army expensed
       construction costs as opposed to capitalizing them. With respect to the other
       Military Services, we determined that the overall policies and procedures for the
       Navy, Air Force, and Marine Corps for CIP complied with GAAP and were
       consistent with established DoD policies. However, the Military Services’
       policies are inconsistent regarding the capitalization of interest paid because of
       conflicting guidance between Statement of Federal Financial Accounting
       Standards (SFFAS) No. 6 and DoD “FMR, volume 13, Nonappropriated Funds
       Policy and Procedures,” January 2004. The DoD FMR does not allow NAFI
       entities to capitalize interest. However, SFFAS No. 6 requires Federal
       Government entities to capitalize material interest costs paid as part of the fixed
       asset. Our review of Military Services’ compliance with established CIP
       guidance follows.

Army

       We determined that the Army Headquarters Community and Family Support
       Center (CFSC) recorded major construction projects as a grant expense during the
       initial phase of the contract award instead of capitalizing the costs of the project
       under a CIP account. On completion of the construction project, Army
       Headquarters transferred the grant expense balance to the installation, which then
       capitalized the asset under the appropriate asset account. The Army changed its
       CIP accounting policy as of October 1, 2006. Because of this change, the Army
       recorded a $135 million adjusting entry for the estimated value of the active
       construction projects that had been expensed. Although we did not review or
       examine the $135 million adjustment, we concluded that the Army’s revised CIP
       accounting procedures comply with the relevant guidance, except for not
       capitalizing interest as part of the CIP cost.

Navy

       The Commander, Navy Installations Command (CNIC) manages the accounting
       for Navy and is responsible for CIP. Overall, the Navy accounting guidance for
       CIP complied with the relevant guidance except for not capitalizing interest and
       not adding indirect labor for NAFI employees. The Recreation and Mess Central
       Accounting System (RAMCAS) guidelines allow improper practices concerning
       labor capitalization under certain circumstances. The RAMCAS page C-48
       states:
              Labor costs are included only if the labor is contracted or a NAF
              employee was hired for the express purpose of performing work to
              create fixed assets. Do not include the labor cost of NAF employees




                                              3
                 working on a fixed asset if the employees would have been on the
                 payroll regardless of whether or not they worked on a fixed asset.

        The Navy’s fixed assets thresholds were contrary to the values noted in DoD
        FMR, volume 13. The Navy Section 9.1, “Fixed Assets,” of the Bureau of Naval
        Personnel Instructions (BUPERSINST) 7510.1B classifies a purchase with an
        acquisition value greater than $2,500 as fixed assets, but the DoD FMR,
        volume 13, chapter 3, “Assets” August 1994, classifies a purchase, donation or
        transfer of a property, plant, and equipment with an acquisition cost greater
        than $1,000 as a fixed asset.

        Although we reviewed only CIP policy, we did note the following CIP-related
        problems in the review of prior audit coverage:

                 •   A CIP project totaling $11.6 million was not reversed upon completion
                     and after occupancy criteria were met. 5

                 •   Fixed assets were initially recorded as assets in the CIP account,
                     instead of an appropriate fixed asset account for furniture, fixtures, and
                     equipment. 6
        Audited financial statements for FY 2005 Navy Installation Command Central
        Fund 7 disclosed facility and operating grants disbursements of $26.9 million and
        $13.1 million for FY 2005 and FY 2004, respectively. Navy officials stated,
        “Probably should re-name these entries since they represent capital and operating
        grants. These entries are not related to our major construction program. The
        entries represent either an operating grant or the central purchase of equipment,
        such as fitness equipment.” The DoD FMR, volume 13 states that the transfer of
        cash or other assets affects equity, and nonmonetary exchanges between NAFI are
        recorded on the books of the gaining NAFI at the net book value with offsetting
        entry to equity on both the gaining and the losing NAFI. We concluded that the
        CNIC accounting practice of treating the transfer of capital for the purchase of
        equipment as a grant expense misleads the financial statement users, and distorts
        the financial statements’ reliability, relevance, consistency, and comparability.

Air Force

        The Directorate of Financial Management and Comptroller, Headquarters
        Air Force Services Agency is responsible for all NAFI accounting and financial
        reporting. Based on our discussions with Air Force officials and analysis of data
        and guidance, we concluded that the Air Force was accounting for CIP in
        accordance with the relevant guidance, except for capitalization of interest. We




5
Letter to Audit Committee Members Morale, Welfare, and Recreation Division Navy Personal
Command (NAVPERSCOM), dated September 30, 2004, by Grant Thornton LLP.
6
 Report on Compliance and on Internal Control over Financial Reporting Based on an Audit of Financials
Statements, US Navy, Navy Personnel Command Morale, Welfare, and Recreation Division 2003 MWR
Site Visits, by Grant Thornton LLP.
7
Consolidated Financial Statements and Report of Independent Certified Public Accountants CNIC Central
Non-appropriated Funds September 30, 2005 and 2004, dated December 9, 2005, by Grant Thornton LLP.



                                                   4
         reviewed prior audit reports, which did not reveal any findings related to the
         Air Force CIP. 8

Marine Corps

         The Marine Corps Community Services (MCCS) is responsible for the Military
         MWR, Armed Services Exchange, Civilian MWR, and Supplemental Mission
         Funds Program Groups Reports. Staff at the Navy Annex perform the accounting
         and reporting for the Marine Corps Transient Billeting Lodging Program
         (Billeting). Based on our discussions with Marine Corps officials and our
         analysis of data and guidance, we concluded that the Marine Corps was
         accounting for CIP in accordance with the relevant guidance, except for:

                  •   capitalizing interest,

                  •   thresholds for procedures capitalizing fixed assets differ from volume
                      13, chapter 3 of the DoD FMR, and

                  •   fixed asset reserve activity recorded in the equity accounts.


Eliminating Entry Transactions
         The Policy Office asked us to review eliminating entry transactions between
         headquarters and installations or regions and between headquarters funds. We
         focused on the data integrity and compliance problems for FY 2005. We
         reviewed the reports for FYs 2003 and 2004 to determine whether potential
         systemic problems existed within the Military Services.

Army

         We requested information from the Army that consolidated the financial
         information for base level (field activities) and headquarters financial activity into
         the 1015.15 Reports, 9 however, the Army was unable to provide the requested
         information. Army officials told us that the 1015.15 submissions were a
         collection of spreadsheets, not financial statements. Army officials added, “The
         spreadsheet was a financial report, but not a financial statement.” In addition,
         Army officials told us that their “submissions are made up of a collection of field
         and headquarters activities.” Army officials added, “The CFSC tries to eliminate
         any transactions that take place between the Program Groups; however, actual
         eliminating entries are not recorded in the Defense Finance and Accounting
         Services (DFAS) systems.” We asked how the Army confirms the overall
         integrity of the consolidated financial reports. Army officials responded, “CFSC
         did not want the auditors to misunderstand that a financial statement existed for
         the Army’s NAFI nor did CFSC have a document to support the flow of
         information to the consolidation of spreadsheets, eliminating entries and

8
 Air Force officials informed us that the audits were not of a financial nature, but instead the audits were
performance reviews. Air Force officials added that the only financial statement audits were performed at
the headquarters level.
9
The Military Services refer to these Reports as 1015.15 Submissions, so for the purposes of this report we
will refer to these documents as Report(s).



                                                      5
        final 1015.15 submissions.” Army officials consistently told us that they used a
        manual process to prepare the consolidated Program Group Reports, but they did
        not retain a copy of that document for the DoD OIG to analyze.

        We attempted to follow the flow of information from the Army internal financial
        systems to the Reports provided to the Policy Office, but we were unsuccessful
        because the Army lacked eliminating entry transactions data at the account level.
        Therefore, we could not comment on the reasonableness of the related elimination
        entry transactions for the Army’s Reports.

        The Army does not have an enterprise management system in place. A recent
        U.S. Army Audit Agency report 10 noted,
                Because many organizations are involved in the various facets of
                accounting and financial management for the Army’s MWR Program,
                a clear need exists to develop a financial management structure that
                facilitates IMA’s execution of its mission in concert with its vision. In
                the same report, U.S. Army Audit Agency continued with, “The
                current fund structure is segmented and complex, requiring many
                transactions among multiple funds. The funds were aligned
                geographically, by command, or through assigned functions. The
                financial reporting and management of multiple funds creates
                unnecessary—and avoidable—work and complexities. For example, in
                the Army MWR Annual Report, the Army MWR Program reported
                NAF revenues for FY 04 totaling about $887 million. However, proper
                accounting for these revenues required the Army to process
                transactions totaling about $1.6 billion, or about $713 million in
                duplicative interfund transactions.

        In summary, the current structure requires multiple transactions between many
        funds that are aligned geographically, by command, or through assigned
        functions. We concluded that this lack of an integrated system was a contributing
        factor in the inability of the Army to respond to our requests for information.

Navy

        The Navy uses the RAMCAS system to accumulate accounting information.
        RAMCAS does not have a report writer and the CNIC staff prepares each
        consolidated Program Group report through a manual consolidation process.
        CNIC officials said they had not retained copies of the supporting documentation
        used to prepare the financial information included in the consolidated Program
        Group Reports and would have to recreate the requested information. We were
        able to review the eliminating entry transactions for FY 2005 and concluded that
        transactions between headquarters and installations or regions were consistent and
        properly eliminated during consolidation; transactions between headquarters
        funds were either properly eliminated during consolidation if they were within the
        same Program Group or disclosed if they were not within the same Program
        Group.

        CNIC officials were unable to recreate their supporting documentation for the
        FY 2003 and FY 2004 Military MWR consolidated Program Group Reports.
        Therefore, we could not comment on the reasonableness of the related elimination
10
 U.S. Army Audit Agency Report No. A-2006-141-FFH “Financial Management Structure for the Army
Morale, Welfare, and Recreation Program for U.S. Army Installation Management Agency,” June 22,
2006.



                                                   6
        entry transactions for these Reports. In addition, we discovered that the Navy
        Flying Club’s financial information is not being included in any Program Group
        Report. This omission will cause a $357,060 understatement of NAFI assets.

Air Force

        Air Force officials provided us a list of all applicable supporting information for
        the eliminating entry transactions in a format consistent with generally accepted
        accounting principles used in the United States of America. We compared the
        eliminating entry information to the records within the Services Agency Financial
        Information System (SAFIS) to determine that the appropriate balances were
        being eliminated as described. We concluded that the eliminating entries were
        consistent with the type of adjustments for these activities, except that the
        Civilian MWR Program Group financial statements did not eliminate the Air
        Force Assessment in FYs 2004 and 2005. 11 In addition, the Special Purpose
        balance sheet that the Air Force consolidated in the SAFIS system reflects a
        balance of $545,266 in an account designated as “Receivables from other
        NAFIs,” but it does not reflect the balance in the FYs 2004 and FY 2005 Reports
        to the Policy Office.

Marine Corps

        The Marine Corps format for their consolidated internal financial statements is
        consistent with generally accepted accounting principles used in the United
        States. Based on our analysis of the Marine Corps eliminating entry transactions,
        we concluded that Marine Corps transactions between headquarters and
        installations or regions were consistent and properly eliminated during
        consolidation. In addition, transactions between headquarters funds were
        properly eliminated if they were within the same Program Group and disclosed if
        activity was between Program Groups. While these adjustments appear
        reasonable, the financial statements included far more elimination,
        reclassification, and adjusting journal entries than would be consistent with
        common practice. We discussed this issue in Appendix C, “Other Matters of
        Interest.”


Prior Period Adjustments
        The Policy Office requested that we review prior-period adjustments (includes
        equity transactions) to establish whether they were disclosed and properly
        documented within the annual Reports submitted to the Policy Office.

Army

        In response to our request for prior-period adjustments greater than $50,000, the
        Army responded, “You have all the identified transactions within program groups
        regardless of dollar value listed with the packages we gave you in our original
        meetings. As far as prior-period adjustments, what is the criteria for establishing

11
  Assessments are charges between headquarters and field operations, where headquarters records revenues
for services levied to the field, which records an expense. Failure to eliminate this activity overstates
revenues and expenses.



                                                   7
        a threshold of $50,000? Considering the magnitude of the Services’ reported
        assets or revenue, the amount seems rather arbitrary.” In addition, Army officials
        added that since a materiality threshold does not exist for reporting the inter-
        Program Group transactions, the Army does not track these transactions and could
        not provide a list of the transactions in question to the auditors.” Because the
        Army could not provide the requested information, we could not verify whether
        each of the equity transactions had been properly classified as an equity
        transaction as required by DoD Instruction 1015.15.

        DoD Instruction 1015.15 clearly defines the accounting for capital distributions
        between Program Groups as equity transfers, not income or expense. For
        example, the U.S. Army Audit Agency (AAA) 12 reported the following
        significant overstatement of revenue was caused by an equity transfer being
        reported as revenue.
                The payments from the Army Recreation Machine Program (ARMP)
                Trust Fund and field MWR activities to the Army MWR Fund weren’t
                related to the sales of goods or services. Therefore because CFSC
                prepares annual budget guidance and financial reports to support Army
                MWR as a corporate entity, CFSC should treat the transfers from these
                other activities as increases to fund equity to the Army MWR Fund.
                During FY 03 Army MWR Fund accountants reported about
                $42.5 million in revenues from other MWR activities. The amount
                included about $26.8 million in ARMP Trust Fund distributions and
                about $15.7 million in capital reinvestment assessments from field
                MWR activities. If these amounts had been reported as increases to
                retained earnings, revenues would decrease from about $122.3 million
                to about $79.8 million.

        We concur with the finding of the AAA that these transfers of monies between
        activities should be recorded as equity transfers, not income, on one set of
        financial statements and as an expense on the other. Reclassifying equity
        transfers as program expenses is an incorrect accounting treatment that
        significantly distorts the income statement and is not in accordance with GAAP.

Navy

        We reviewed the list of equity transactions from FYs 2003 through 2005 provided
        by the Navy, and followed the flow of information to the Reports. For each of the
        Program Groups reviewed, we noticed material discrepancies between the total of
        equity transactions that the Navy gave the DoD OIG and the amounts disclosed in
        the related Reports. The Navy also did not provide adequate descriptions for each
        of these equity adjustments. Without a description of the adjustment, we could
        not verify whether each of the transactions had been properly classified as an
        equity transaction as required by the DoD Instruction 1015.15.

Air Force

        We reviewed the list of prior-period adjustments provided by the Air Force and
        traced that disclosure to the appropriate Report without exception. While all of
        the prior-period adjustments from the list provided by Air Force were properly

12
 U.S. Army Audit Agency Report No.A-2006-0101-FFH, “Attestation Review of Morale, Welfare, and
Recreation Financial Statements-Morale, Welfare, and Recreation Fund for U.S. Army Community and
Family Support Center,” April 27, 2006.



                                                 8
         disclosed in the Reports, we noted discrepancies between the internal financial
         statements and those Reports. We compared the Air Force’s definitions for many
         of its General Ledger Accounts Codes (GLAC) found within the Air Force equity
         sections to the requirement of the DoD Instruction 1015.15. Based on the
         information in our comparison, we concluded that many of the definitions and
         related financial transactions for the Air Force equity GLACs did not comply with
         DoD Instruction 1015.15. In response to our inquiries about these GLACs, the
         Air Force stated that although the use of the GLACs may appear contrary to the
         DoD instruction, their use does not create an accounting issue. These are memo
         accounts that help Air Force leaders capture a snapshot of future outstanding
         requirements. We were unable to reconcile the equity accounts in the Air Force
         SAFIS.

         During our conversation with Air Force officials, they noted numerous equity
         transactions not within the scope of our engagement that were not disclosed, and
         that the Air Force most likely does not comply with the DoD Instruction 1015.15.
         Finally, during our review of the financial statements for the Program Groups
         consolidated in SAFIS, we noted that, in each case, the period-ending account
         balance for equity did not agree with the subsequent period-beginning balance for
         equity. We determined that we could not rely on the system for the Equity
         Accounts.

Marine Corps

         We reviewed the list of prior-period adjustments. Taking into consideration that
         adjustment to equity should be very infrequent, we noticed that the Marine Corps
         had an unusually high number of equity transactions for each of the audited years
         that we reviewed:

                  •    917 transactions for FY 2002,

                  •    905 transactions for FY 2003,

                  •    433 transactions for FY 2004, and

                  •    676 transactions for FY 2005.

         The following are a few examples of the approximately 3,000 transactions
         recorded directly to the equity account during the last 4 fiscal years by the Marine
         Corps:

                  •    $865,275 court settlement of a legal action related to El Toro Marine
                       Corps Base, which was officially closed in 1999, were charged as
                       adjustments to equity in the fiscal years reviewed,

                  •    cash reconciliations adjustments charged directly to the equity fund as
                       high as $150,000,

                  •    $126,000 of no-year 13 Congressional Appropriation for Deployment
                       Support for Bosnia and Southwest Asia, and given to Marine

13
  Budget authority that remains available for obligation for an indefinite period of time, usually until the
objectives for which the authority was made available are attained.



                                                      9
                  Expeditionary Unit Commanders before deployment, for Local Tours
                  and Recreation, and

              •   numerous payments related to insurance for the current period are
                  systematically made directly through equity instead of being properly
                  accrued and expensed through the income statement as operating
                  expense for the current period.

          We concluded from the records reviewed that many Marine Corps equity
          transactions either did not meet the qualification for inclusion in the equity
          account or did not have the proper approval and support as required by
          GAAP.



The majority of the equity transactions should not have been treated as equity
transactions, so we referred them to the Marine Corps Non-Appropriated Fund Audit
Services for its review.




                                           10
Agreed-Upon Procedures, Auditor’s Actions, and Results
     The Policy Office and the DoD OIG agreed that the auditors would perform
     procedures to review the financial reporting practices for NAFI. Specifically, we
     reviewed four primary areas:

            •    DoD policies,

            •    accounting for CIP,

            •    eliminating entry transactions between headquarters and installations
                 or regions and between headquarters funds, and

            •    prior-period adjustments.

     This section contains the agreed-upon procedures, the auditor actions, and the
     results of accomplishing those procedures as of August 4, 2006.

Accounting Policy Review
     Procedure

     We reviewed DoD policies to determine whether policy changes would improve
     clarity and assist the NAFIs in uniformly applying GAAP.

     Auditor Action

     We held discussions with the Policy Office and Office of the Under Secretary of
     Defense (Comptroller)/Chief Financial Officer (OUSD[C]/CFO) to identify their
     specific needs for the NAFI Reports. We obtained electronic copies of all of the
     Reports submitted to the Policy Office from FYs 2003 through 2005 for the six
     Program Groups. We obtained copies of the comments from the Policy Office to
     the Military Services documenting data integrity problems in the annual reports
     submitted to them, and discussed them with the Policy Office to establish
     consistent problems and their possible causes.

     We visited the offices of the Military Services responsible for the Reports to gain
     an understanding of their financial management system and reporting processes,
     and to document possible causes for the continuing data integrity problems raised
     by the Policy Office. After our initial review of the Military Services’ supporting
     information for the Reports, we met with the Policy Office and OUSD(C)/CFO to
     discuss our initial findings. We believe that current policy is the cause for some
     of the consistent errors made by the Military Services. We then reviewed existing
     DoD policy and suggested changes to assist the Policy Office and OUSD(C)/CFO
     in improving clarity within DoD policies so that the NAFIs would uniformly
     apply GAAP. The suggested policy changes could lead to unqualified opinions
     on the component-level, consolidated reports for each Program Group submitted
     to the Policy Office as directed by DoD Instruction 1015.15.

     Results

     Appendix D contains suggested changes to DoD regulations, directives, and
     instructions. Appendix E has the suggested changes for DoD 7000.14, “Financial
     Management Regulations (FMR),” volume 13.

                                         11
Construction-in-Progress
     Procedure

     We reviewed the financial management practices and policies that the Military
     Services used to account for CIP.

     Auditor Action

     We interviewed the Military Services personnel responsible for accumulating and
     consolidating financial information used in the Reports. To understand the
     methodology used to account for CIP and to verify the existence of GLACs for
     CIP within the financial statements of the Military Services NAFIs, we requested
     the following documentation:

            •    accounting policies and procedures for CIP, and

            •    standard accounting journal entries for CIP.

     We reviewed the FASAB guidance, Financial Accounting Standards Board
     Pronouncements, DoD FMR, volume 13, with respect to CIP. We compared the
     Military Services’ CIP accounting policies and procedures to the FASAB
     requirements and related DoD FMR allowable accounting practices.

     Results

     Army

     We concluded that the Army’s accounting treatment for CIP did not comply with
     the relevant guidance. The Army agreed to change its policy and make an
     adjusting entry for active construction projects that were expensed. We therefore
     concluded that the new accounting methodology proposed by Army for CIP was
     in accordance with the relevant guidance, except for the capitalization of interest
     expense. The omission of interest expense understates the CIP account balance.

     Navy

     We concluded that the Navy accounting guidance for CIP complied with the
     relevant guidance, except for capitalization of interest and labor costs for NAFI
     employees. Specifically, the Navy does not include the labor cost of NAFI
     employees working on a fixed asset if the employees would have been on the
     payroll regardless of whether they worked on a fixed asset.

     Air Force

     We concluded that the Air Force accounting policies for CIP complied with the
     relevant guidance, except for capitalization of interest.

     Marine Corps

     We concluded that the Marine Corps’ accounting policies and procedures for CIP
     complied with the relevant guidance, except for capitalization of interest and asset
     capitalization thresholds.


                                          12
Eliminating Entry Transactions

     Procedure

     Evaluate the process that the Military Services used to account for:

            •    transactions between headquarters and installations or regions to
                 determine that they are consistent and able to be properly eliminated
                 during consolidation, and

            •    transactions between headquarters funds so that they may either be
                 properly eliminated during consolidation, if within the same Program
                 Group, or disclosed if they are not within the same Program Group.

     Auditor Action

     The Policy Office informed us that during its FY 2004 review of the NAFI
     statements, errors were disclosed indicating a continuing deficiency in procedures
     for intra-Program Group adjustments required for consolidated reporting. Of
     particular concern are unreconcilable equity transfers (transactions) between
     headquarters and field activities. We forwarded to each of the Military Services a
     list of preliminary questions covering these transfers and requested copies of their
     consolidation procedures.

     From each of the Military Services, we requested and reviewed all eliminating or
     reclassifying and adjusting journal entries that were part of each consolidation. In
     addition, we specifically requested documentation from the Military Services for
     FY 2003, FY 2004, and FY 2005 financial statement transactions that included:

            •    transactions greater than $50,000 between headquarters and
                 installations or regions to determine that these transactions were
                 consistent and properly eliminated during consolidation, and

            •    transactions greater than $50,000 between headquarters funds, and
                 verification that these transactions were either properly eliminated
                 during consolidation, if within the same Program Group, or disclosed
                 if they were not within the same Program Group.

     For each of the Military Services, we requested copies of all audit reports issued
     by Independent Public Accounting firms for work performed on these Program
     Groups and related statement of work (SOW) and correspondence between the
     Policy Office and the Military Services that are relevant to these Program Group
     Reports.

     We focused on the data integrity and compliance problems within the FY 2005
     Reports. In addition, we reviewed the supporting information for the FYs 2003
     and 2004 Reports to establish potential systemic problems within the Military
     Services that are responsible for those continuing data integrity problems.

     Results

     The Army could not provide the appropriate supporting documentation for
     eliminating entry transactions. Therefore, we could not comment on the


                                          13
        reasonableness of the related elimination entry transactions for these Reports. We
        were able to review the adjusting, elimination, and reclassification journal entries
        for FY 2005 for the other Military Services. Based on that analysis, we
        concluded:

                 •   transactions between headquarters and installations or regions were
                     consistent and properly eliminated during consolidation, and

                 •   transactions between headquarters funds were either properly
                     eliminated during consolidation, if within the same Program Group, or
                     disclosed as footnotes if not within the same Program Group.

        We did note the following problems with eliminating entries:

                 •   the Air Force Civilian MWR Program Group financial statements did
                     not eliminate the Air Force Assessment 14 in FYs 2004 and 2005, and

                 •   the Air Force consolidated balance sheet for the Special Purpose
                     Program Group in the SAFIS system reflects a balance of $545,266 in
                     an account designated as “Receivables from other NAFIs,” but does
                     not reflect this amount in the FYs 2004 and 2005 Reports to the Policy
                     Office, and

                 •   we noted an unusual amount of journal entries at the Marine Corps
                     indicating a failure to accrue activity during the current period. This is
                     indicative of an activity using a modified cash basis method of
                     accounting, which does not comply with GAAP.

Prior Period Adjustments
        Procedure

        We reviewed prior-period adjustments to determine whether the adjustments were
        material and whether the purpose of the footnotes was fully disclosed.

        Auditor Action

        We interviewed the responsible officials at the respective Military Installations,
        obtained standard operating procedures for equity adjustments, and requested a
        list of all the Program Groups prior-period adjustments that were greater than
        $50,000 for FYs 2003 through 2005.

        We then compared the equity transaction information provided by the Military
        Services to the DoD guidance for allowable equity transactions. DoD
        Instruction 1015.15 paragraph 5.4.2.4 sets forth this requirement.
                 Transfers into and out of equity shall be limited to net income, net
                 losses, prior year material corrections, entries associated with
                 establishment, disestablishment, or consolidation of NAFIs, unrealized
                 gains or losses on DoD Component or Military Service Headquarters

14
  Assessments are charges between headquarters and field operations, where headquarters records revenues
for services levied to the field, while the field records an expense. Failure to eliminate this activity
overstates revenues and expenses.



                                                  14
       investments, and the distribution and receipt of capital. Distribution of
       funds from Base Realignment And Closure (BRAC) Reserve Accounts
       shall be recorded as equity transactions.

In addition, we reviewed equity transactions between headquarters and
installations or regions and transactions between headquarters funds to determine
that they were consistent and in compliance with DoD Instruction.1015.15.

Results

We noted that in some cases the Military Services properly disclosed material
adjustments within the Reports submitted to the Policy Office, but our overall
assessment is that all of the Military Services are distorting their income
statements by charging current year operating expenses to equity. In addition, the
Military Services did not comply with DoD Instruction 1015.15,
paragraph 5.4.2.4, which establishes allowable equity transactions or transfers.
Finally, the Army’s reclassification of equity transfers as program expenses is an
incorrect accounting treatment that significantly distorts the income statement and
is not in accordance with GAAP.

Army

An Army official’s response noted that the Army disclosed all of its prior-period
adjustments in the annual Reports. In addition, the same Army official noted that
they did not track and could not provide documentation for numerous equity
transactions.

Navy

The auditors noticed material discrepancies between the total of equity
adjustments provided by the Navy to the DoD OIG and those amounts disclosed
in the related Report. The Navy also did not provide adequate descriptions for
each of these equity adjustments. Therefore, we were unable to establish whether
all prior-period adjustments complied with DoD Instruction 1015.15.

Air Force

We reviewed the list of prior-period adjustments that the Air Force provided and
traced their disclosure to the appropriate Report, without exception. Air Force
officials stated that they had not disclosed numerous equity transactions below
our threshold, and therefore the Air Force probably does not comply with DoD
Instruction 1015.15.

Marine Corps

Many of the Marine Corps equity transactions either did not qualify as equity, as
defined by DoD Instruction 1015.15, paragraph 5.4.2.4, or did not have the proper
approval and support as required by GAAP. Many of the transactions recorded as
equity should not have been treated as equity transactions, and we advised Marine
Corps Nonappropriated Fund Audit Services of this finding. For further
discussion, see Appendix C, “Other Matters of Interest.




                                         15
Appendix A. Scope and Methodology
   The Policy Office requested that the DoD OIG review the financial reporting
   practices for Nonappropriated Fund Instrumentalities and Related Activities. The
   Policy Office desires Military Service-level consolidated financial statements for
   each of the six Program Groups (defined by DoD Instruction 1015.14,
   paragraph 4.3). DoD Instruction 1015.15 requires the Military Departments to
   submit annual financial reports to the Policy Office. During its review of the
   FY 2004 Reports, the Policy Office noted a continuing deficiency in procedures
   for intra-Program Group adjustments required for consolidated reporting. Of
   particular concern were unreconcilable equity transfers between headquarters and
   field activities, noncompliance with DoD accounting policy for NAFI CIP, and
   prior-period adjustments.

   The Policy Office and DoD OIG discussed and agreed on procedures for the
   engagement. The procedures included reviewing DoD policies to improve clarity
   and to determine that NAFIs uniformly apply GAAP, which could lead to
   unqualified opinions on the component-level consolidated reports for each
   Program Group submitted to the Policy Office. Specific procedures were to
   review:

          •   accounting for CIP,

          •   transactions between headquarters and installations or regions to
              determine that they are consistent, so they may be properly eliminated
              during consolidation,

          •   transactions between headquarters funds so that they may either be
              properly eliminated during consolidation, if within the same Program
              Group, or disclosed if they are not within the same Program Group,
              and

          •   prior-period adjustments to determine whether they are material and
              whether footnotes fully disclose what they are for and why.

   The DoD OIG performed these agreed-upon procedures from March 2006
   through August 2006 in accordance with GAGAS and attestation standards
   established by the American Institute of Certified Public Accountants as of
   January 19, 2006.

   Scope Limitations. The agreement limited our scope to procedures that did not
   include tests of management controls. Therefore, we limited our scope to the
   Military Services covering their financial reporting practices for NAFI and
   Related Activities, and we judgmentally selected financial information to evaluate
   the effectiveness and integrity of information flowing into the related financial
   reports. During the program and methodology reviews, we identified process
   deficiencies relating to DoD policies in Appendices D and E. We discussed the
   process deficiencies relating to CIP accounting, eliminating entry transactions
   between headquarters and installations or regions and between headquarters
   funds, and prior-period adjustments in the Results section of this report. Finally,
   we noted other process deficiencies in Appendix C, “Other Matters of Interest.”



                                       16
Use of Computer-Processed Data. We relied on computer-processed data
provided by the Policy Office and the four Military Services. We extracted the
data from numerous DoD financial systems. We used the computer-processed
data to analyze the integrity of the information supporting data included in the
annual Reports. We did not determine the reliability of the computer-processed
data.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. Our audit
provides coverage of the two principal high-risk areas within DoD Approach to
Business Transformation, (1) DoD Business Systems Modernization, and (2)
Defense Financial Management.




                                    17
Appendix B. Prior Coverage
   During the last 12 years, the Government Accountability Office, the DoD
   Inspector General, the U.S. Army Audit Agency, the Naval Audit Service, and the
   Air Force Audit Agency have issued several reports discussing NAFIs. We have
   included 22 of those reports. Unrestricted GAO reports can be accessed over the
   Internet at http://www.gao.gov. Unrestricted DoD OIG reports can be accessed at
   http://www.dodig.mil/audit/reports.


GAO
   Report No. GAO-06-256R, “Pilot Project to Expand Merchandise Sold in
   Commissary Stores Will Likely Have Negligible Impact on the Exchange
   Dividend,” December 22, 2005

   Report No. GAO-04-56, “DOD Needs to Strengthen Internal Controls over Funds
   Used to Support USO Activities,” December 5, 2003


Army
   U.S. Army Audit Agency Report No. A-2006-141-FFH, “Financial Management
   Structure for the Army Morale, Welfare, and Recreation Program for U.S. Army
   Installation Management Agency,” June 22, 2006

   U.S. Army Audit Agency Report No. A-2006-0101-FFH, “Attestation Review of
   Morale, Welfare, and Recreation Financial Statements-Army Morale, Welfare,
   and Recreation Fund for U.S. Army Community and Family Support Center,”
   April 27, 2006

   U.S. Army Audit Agency Report No. A-2006-0100-FFH, “Attestation Review of
   Morale, Welfare, and Recreation Financial Statements-Hospitality Cash
   Management Fund for U.S. Army Community and Family Support Center,”
   April 27, 2006

   U.S. Army Audit Agency Report No. A-2006-0019-ALE, “Follow-up Audit of
   Laundry and Dry Cleaning Services for U.S. Army Installation Management
   Agency, Europe Region,” December 2, 2005

   U.S. Army Audit Agency Report No. A-2006-0017-ALE, “Army Golf Operations
   in Europe for U.S. Army Installation Management Agency, Europe Region,”
   November 10, 2005

   U.S. Army Audit Agency Report No. A-2005-0316-ALE, “Follow-up Audit of
   Nonappropriated Fund Payroll for U.S. Army Installation Management Agency,
   Europe Region,” September 22, 2005




                                     18
       U.S. Army Audit Agency Report No. A-2005-0268-FFP, “Audit of
       Nonappropriated Fund Financial Management Structure, Installation Management
       Agency,” September 1, 2005

       U.S. Army Audit Agency Report No. A-2005-0236-FFH, “Attestation Review of
       Morale, Welfare, and Recreation Financial Statements-Army Nonappropriated
       Fund Employee Retirement and 401(k) Savings Plans for U.S. Army Community
       and Family Support Center,” July 18, 2005

       U.S. Army Audit Agency Report No. A-2005-0220-ALE, “Follow-up Audit of
       Controls Over Morale, Welfare, and Recreation Equipment Downrange (Bosnia
       and Kosovo) for U.S. Army, Europe and Seventh Army,” July 14, 2005

       U.S. Army Audit Agency Report No. A-2005-0001-FFG, “Secretary of Defense
       Executive Dining Facility Fund Internal Controls for Office of the Secretary of
       Defense,” July 8, 2005

       U.S. Army Audit Agency Report No. A-2005-0080-FFG, “Office of the Secretary
       of Defense/Joint Staff Welfare and Recreation Association Fund Internal
       Controls,” April 13, 2005

       U.S. Army Audit Agency Report No. A-2005-0144-FFH, “Attestation Review of
       Morale, Welfare, and Recreation Financial Statements-Armed Forces Recreation
       Centers, U.S. Army Community and Family Support Center,” March 23, 2005

       U.S. Army Audit Agency Report No. A-2005-0096-FFH, “Army Lodging
       Overhead Costs for U.S. Army Community and Family Support Center,”
       January 20, 2005


Navy
       Naval Audit Service Report No. N2003-0063, “Civilianizing the Marine Corps
       Nonappropriated Fund Audit Service,” July 23, 2003
       Naval Audit Service Report No. N2002-0059, “Quality Assurance Review of the
       Local Audit Function at the Navy Exchange Service Command,” July 1, 2002

       Naval Audit Service Report No. N2002-0055, “Insufficient Appropriated Fund
       Support of Morale, Welfare, and Recreation Increases Cost to Individual
       Marines,” June 14, 2002


Air Force
       Air Force Audit Agency Report No. F2005-0007-FD2000, “Air Force Morale,
       Welfare, and Recreation Advisory Board Corporate Governance,”
       September 8, 2005




                                          19
Air Force Audit Agency Report No. F2004-0002-FD2000, U.S. Army Audit
Agency Report No. A-2004-0076-IMH, “Controls Over the Army and Air Force
Exchange Service,” December 19, 2003

Air Force Audit Agency Report No. F2003-0001-FD2000, U.S. Army Audit
Agency Report No. A-2003-314-IMH, “Controls Over the Army and Air Force
Exchange Service-Cash Discounts,” June 10, 2003

Air Force Audit Agency Report No. F2003-0003-FB4000, “Nonappropriated
Fund Cash Controls,” December 30, 2002




                                20
Appendix C. Other Matters of Interest
Accounting Systems
        Army

        The Army does not have an enterprise management system in place. The
        U.S. Army Audit Agency 15 noted in a recent report,
                The current fund structure is segmented and complex, requiring many
                transactions among multiple funds. The funds were aligned
                geographically, by command, or through assigned functions. The
                financial reporting and management of multiple funds creates
                unnecessary—and avoidable—work and complexities.

        We concluded that the lack of an integrated system was a contributing factor to
        the Army’s inability to respond to our requests for information and also cause for
        the numerous interfund transactions that create data integrity problems with the
        annual consolidated Program Group Reports. In addition, the Army does not
        have a report writer system and generates the annual Reports manually.

        Navy

        The primary accounting system, RAMCAS, functions as a centralized integrated
        accounting system for the Navy Military MWR, Civilian MWR, TDY Lodging,
        and Military Treatment Facility Lodging Program. The system does not have a
        report writer, thus CNIC has to consolidate the Program Group numbers
        manually. As noted earlier in this report, CNIC did not retain copies of the
        Navy’s manually generated, consolidated Program Group documentation. A
        report writer could have standardized the report function and provided an audit
        trail for the Reports.

        Air Force

        The Air Force integrated financial management system SAFIS creates the
        Air Force annual Reports through a report writer, which minimizes errors and
        standardizes the reporting process. We did note one error in the Report caused in
        part by the report writer. Each time the Air Force adds a GLAC to the Air Force
        accounting system, the Air Force must add the GLAC manually into the report
        writer. Air Force advised us that their new accounting system will alleviate this
        problem.

        Marine Corps

        The Marine Corps financial management system is the AXS-One Accounting
        System that accounts for the financial information in Program Groups I, II, and V.
        Financial information for Program Group III is tracked on Excel spreadsheets and
        entered manually into the AXS-One Accounting System. While the AXS-One

15
  U.S. Army Audit Agency Report No. A-2006-141-FFH, “Financial Management Structure for the Army
Morale, Welfare, and Recreation Program for U.S. Army Installation Management Agency,”
June 22, 2006.



                                                21
     Accounting System is the integrated financial system for the Marine Corps, it
     lacks a report writer, and requires manual preparation of the annual consolidated
     Program Group reports.

Audit Opinions

     We noted inconsistent report formats during our review of approximately
     125 audit reports issued by Independent Public Accounting firms. The firms
     worked on various Military Service Program Group financial statements.
     Although some audit reports are based on accounting principles generally
     accepted in the United States, others are based on a comprehensive accounting
     basis other than GAAP or in accordance with the Military Service internal
     policies, such as “MCO P1700.27A, MCCS Policy Manual.” Having identified
     different bases of accounting in these report formats, we requested copies of the
     Independent Public Accounting SOW from each of the Military Services. We
     found that the SOWs differ from one Military Service to another, and even from
     one consolidated Program Group to another within the same Military Service.
     The Policy Office wants NAFIs to apply GAAP uniformly across Component-
     level consolidated financial statements for each Program Group. Based on our
     observations, we concluded that the SOWs were not consistent with the
     requirement of the Policy Office to obtain audit reports that comply with GAAP.
     In addition, some of the reports did not state that the audits were conducted in
     accordance with GAGAS as required by DoD Instruction 7006.6, “Audit of
     Nonappropriated Fund Instrumentalities and Related Activities,”
     January 16, 2004.

     While the Government Auditing Standards, paragraph 2.05, allows audit reports
     to provide assurance that financial statements are presented either in compliance
     with the accounting principles generally accepted in the United States, or with a
     comprehensive accounting basis other than GAAP, it is our understanding that the
     Policy Office requires all audits of consolidated Program Groups to be based on
     GAAP. We suggested that DoD Instruction 1015.15, paragraph 6.5.2., should
     include the following sentence, “The reports shall be based on or be the basis of
     annual financial statements presented in conformity with the accounting
     principles generally accepted in the United States.”
Data Integrity
     Army

     The Army attempts to eliminate all transactions between Program Groups by
     manually adjusting the numbers, rather than booking the adjustments through the
     DFAS. The Army could not support the flow of information from the lowest
     level of accounting up to the Reports.

     We could not establish whether the Army had complete information because it
     did not have consolidated financial statements. We had to create the consolidated
     spreadsheets ourselves to help in reconciling the CFSC accounting records to the
     Army Reports. The Army provided us with hard copies of account totals for each
     individual field fund, headquarters fund totals, and eliminating entries (some of
     which lacked support). The eliminating entries lacked general ledger account
     codes, so we are not certain whether the entries were properly applied.


                                         22
        The following is a list of some of the data integrity problems associated with the
        Army’s Reports:

                 •   The Army MWR total within the FY 2004 Report differs from the
                     accounting records by $503,335.

                 •   DFAS reported appropriated fund use in the amounts of $109,476 and
                     $438,976 for FYs 2004 and 2003, respectively, for nonexistent Army
                     Civilian MWR NAFIs. 16

                 •   The Army Program Groups I, IV, and V reported negative net income
                     for FYs 2003, 2004, and 2005. 17

                 •   The Army Special Purpose total within the Report differs from the
                     CFSC supporting information by $26,373 for FY 2005.

                 •   We could not reconcile the account totals for the Civilian Welfare
                     Fund to the Report because of insufficient information.

        Navy

        We identified reconciliations and other concerns during the Report review. The
        following examples came to our attention in the Navy’s Reports:

                 •   A difference of $60,000 between the FY 2005 consolidated Balance
                     Sheet accounting information for Military MWR and the Report.

                 •   The Navy did not include the Navy Flying Club within the Military
                     MWR consolidation. This omission caused the balance sheet to be
                     understated by $319,333, $354,749, and $357,060 and Net Income to
                     be overstated by $11,871, $35,416, and $2,311 in FY 2003, 2004, and
                     2005, respectively.

                 •   The Navy Billeting consolidated accounting information for FYs 2003
                     and 2004 did not match the information included in the Reports.

                 •   The Supplemental Mission Funds program internal accounting
                     information reported in the balance sheet differs from the Report
                     numbers by $63,644 and $78,190 and Net Income by $13,243 and
                     $45,401 for FYs 2004 and 2005, respectively.

                 •   The Navy New Sanno Hotel FY 2004 internal accounting information
                     within the Net Income differs from the Report numbers by $21,065.



16
   DFAS records for the Civilian MWR NAFIs in Europe, Korea, and Rock Island document the use of
Operation and Management, Army funds in the amounts of $109,476 and $438,976 for FY 2004 and
FY 2003, respectively. However, Army officials informed us that the Army does not possess Civilian
MWR NAFIs in Europe, Korea, and in Rock Island.
17
 DoD Instruction 1015.15, paragraph 5.2.6 states, “Program Group I, II, III, and IV NAFIs at the
consolidated Military Service level and individual Program Group V and VI NAFIs shall achieve, as a
minimum, a break-even or positive net income sufficient to provide for capital requirements.”



                                                  23
        Air Force

        We identified reconciliations and other concerns during the Report review. The
        following examples came to our attention in connection with the Air Force’s
        Reports:

                 •   A difference of $385,193 between the FY 2005 consolidated Income
                     Statement accounting information for Military MWR and the Report.

                 •   A difference of $72,147 between the FY 2003 consolidated Income
                     Statement accounting information for Civilian MWR and the Report.

                 •   Negative income documented within the Report for Military MWR,
                     Civilian MWR, Supplemental Mission, and Special Purpose for
                     FY 2003, FY 2004, and FY 2005. 18

        Marines

        The auditors discovered a difference of $46,005 between the FY 2004
        consolidated balance sheet accounting records of the Marine Corps Exchange and
        the Report. In addition, we noted minor differences between the FY 2004
        Supplemental Mission accounting records and the related Report. We found no
        problems related to data integrity during the testing of the remaining Marine
        Corps accounting information.

NAFI Population
        As part of our analysis of the Reports provided by each of the Military Services to
        the Policy Office, we reviewed the integrity of the number of NAFIs that each
        Military Service was reporting to the Policy Office as part of their Reports. To
        accomplish this task, we requested a list from each Military Service identifying
        the NAFIs it was managing as well as copies of the documents supporting their
        establishment. When we received the population lists from the Military Services,
        we counted the number of NAFIs in each list, and compared them to the number
        each Military Service stated that it managed in its Reports to the Policy Office.

        Army

        The Army did not furnish copies of the supporting documentation for establishing
        the vast majority of its NAFIs. Consequently, we could not verify whether the
        Army established its NAFIs in accordance with DoD Instruction 1015.15, and we
        were also unable to validate the number of NAFIs reported in the Army’s
        Reports. In addition, we noticed the following items:

                 •   NAFIs appeared in the NAFI listing with incorrect names,

                 •   four NAFIs no longer existed, one of which was reporting negative
                     balances in its Army Bank and Investment Fund accounts,


18
 DoD Instruction 1015.15, paragraph 5.2.6 states, “Program Group I, II, III, and IV NAFIs at the
consolidated Military Service level and individual Program Group V and VI NAFIs shall achieve, as a
minimum, a break-even or positive net income sufficient to provide for capital requirements.”



                                                  24
       •    the Army incorrectly categorized two NAFIs as part of the Civilian
            MWR Program Group, and

       •    two existing NAFIs were not included in the Army’s list.

Those conditions led the auditors to conclude that the Army’s list was not
accurate, and that it did not meet DoD Instruction 1015.15’s requirement for
maintaining a current listing of its NAFIs. As a result, we concluded that the
Army could not support its existence assertion for its NAFIs, and its Reports were
incomplete.

Navy

The Navy could not support the existence assertion for its NAFI Reports. The
Navy did not provide supporting documentation for establishing any of its NAFIs,
with the exception of the New Sanno Hotel. As a result, we were unable to
determine if the Navy had established the majority of its NAFIs in compliance
with the DoD Instruction 1015.15. We also found problems with the NAFIs
reported in the Navy listing that also affected its assertion.

       •    The Navy included 14 aircraft carriers in its Report, but only
            12 aircraft carriers are in active service.

       •    The Naval Vessel Register listed a fleet size in active commission of
            238 ships. However, the NAFI list provided by CNIC documented
            410 ships. We know that at the very least, 48 of these ships no longer
            appear as active in this registry.

       •    The Navy’s Reports did not include the Flying Club or the Military
            Sealift Command MWR program.

       •    We believe that the Navy erroneously classified the NAFIs associated
            with the Military Sealift Command ships as Military MWR NAFIs
            instead of Civilian MWR NAFIs, and the Military Sealift Command
            Exchange NAFI as an Armed Services Exchange.

Air Force

We were unable to the determine the exact number of NAFIs that the Air Force
managed, because it provided documents that show conflicting numbers of
NAFIs. In addition, we concluded that Air Force Instruction 34-201, “Use of
Nonappropriated Funds (NAFS),” June 17, 2002, was in conflict with DoD
Instruction 1015.15 because it does not require written approvals for establishing
all NAFIs. Finally, we concluded that we could not validate the existence of any
of the Air Force’s NAFIs or the completeness of the Air Force’s Reports.

Marine Corps

Except for the Civilian MWR NAFIs, we were unable to reconcile the number of
NAFIs reported in the Reports with the number of NAFIs that appear on the
Marine Corps listing. In addition, the Marine Corps did not furnish copies of the
supporting documentation for establishing any of its NAFIs. Therefore, we were
unable to determine if any of the established Marine Corps NAFIs complied with
DoD Instruction 1015.15. Furthermore, the lack of supporting documentation for

                                     25
           the Marine Corps NAFIs led us to conclude that we could not validate the
           existence and completeness assertions for any of the Marine Corps Reports.
           Finally, the lack of documentation also prevented us from determining if the
           Marine Corps NAFI listing was current or accurate.

Reporting Corrections of Errors and Changes in Accounting Principles
           Army

           SFFAS No. 21, “Reporting Corrections of Errors and Changes in Accounting
           Principles,” states that financial statements must be restated if errors result from
           mistakes in applying accounting principles. The CFSC decision to change its
           accounting practices for major construction projects is clearly an example of a
           change from a non-GAAP to a GAAP accounting principle; in other words,
           accounting for major construction projects as an expense is a departure from
           GAAP. For informational purposes, the Army expensed numerous major
           construction, capital purchases, and minor construction projects during previous
           years with an estimated average cost of $100 million per year. Because the CFSC
           changed policy concerning the accounting of major construction projects, it
           should restate its prior period financial statements that were included as
           comparative financial statements with its current financial statements. In
           addition, DoD Instruction 1015.15, paragraph 5.5.2, provides, “Any material
           differences discovered subsequent to the submission of the reports shall be
           immediately reported to the PDUSD(P&R) 19 and the deviation fully disclosed in
           the accompanying auditor’s statement and footnotes.”

           Air Force

           We discovered a difference of $385,000 between the FY 2005 consolidated
           Income Statement accounting information for Military MWR and the Report.
           Although Air Force officials were aware of this, they did not restate the Report as
           required by the DoD Instruction 1015.15.

Visibility of Accounting Transactions
           Although the MCCS elimination and reclassification adjustments appear
           reasonable, the volume of adjustments causes immediate reasons for concern. In
           addition, there were an unusually large number of prior-period adjusting entries
           recorded during the reporting period that did not appear reasonable. After
           discussing each type of adjusting entry with MCCS officials, we determined that
           management had not established formal procedures and methods for developing
           an accounting estimate, and that they did not properly use the accrual system as
           required by GAAP and DoD FMR, volume 13. Management does not always
           accrue its transactions and waits for the documents related to the transaction in
           question to arrive before creating an adjusting entry, similar to the cash basis
           method of accounting. This approach does not comply with GAAP and creates an
           unusually high number of adjusting entries at the end of the accounting period.

           Some of these transactions might follow the Marine Corps internal regulations or
           represent comprehensive forms of accounting other than GAAP, but they do not

19
     DoD instructions use the acronym PDUSD(P&R) as the official acronym for the Policy Office.



                                                    26
meet the needs of the Policy Office for a consistent format to present financial
statements. Further, accounting transactions that bypass the income statement
and are posted directly to the equity fund lose the necessary transparency to allow
proper monitoring and reporting or disclosure. The Marine Corps Significant
Accounting Policies’ footnote disclosure states,
       Activities may record certain transactions, normally recorded under
       accounting principles generally accepted in the United States of
       America in the income statement, directly to net worth. MCCS is not
       required to accrue liabilities for workers’ compensation claims; claims
       are recouped as expense when payment is made.

The Policy Office has two goals: a consistent format for presenting financial
statements, and improved Marine Corps reporting and disclosure of NAFI funds.
To accomplish these goals, we suggest that the Marine Corps follow GAAP and
accrue and record expenses on the income statement for the accounting period
incurred, rather than later in the equity fund when the cash is received or
payments are actually made.




                                         27
Appendix D




             28
Suggested Changes by the Office of the Inspector General of the Department of Defense
to DoD Regulations, Directives, and Instructions Under the Purview of the Office of the
Under Secretary of Defense for Personnel and Readiness.

                                         Overall Comments
The Principal Deputy Under Secretary of Defense for Personnel and Readiness
(PDUSD[(P&R]) is responsible for nonappropriated fund policy and DoD Military
Morale, Welfare, and Recreation programs, military exchange services, and other
authorized Nonappropriated Fund Instrumentalities and Related Activities (NAFI)s.
Further, the PDUSD(P&R) has the responsibility to develop, promulgate, and monitor
compliance with policy and other guidance to properly administer NAFIs and manage
related NAFI resources. The PDUSD(P&R) performs an annual review of the NAFI
consolidated Program Group financial statements (Report(s)) 20 forwarded to it by the
Military Services. During the review of the FY 2004 Reports, 21 the PDUSD(P&R)
discovered unreconcilable equity transfers between headquarters and field activities,
noncompliance with DoD accounting policy for NAFI construction-in-progress, and prior
period adjustments. Because of the irreconcilable equity transfers, and in response to the
President’s Management Agenda of establishing a goal of achieving an unqualified audit
opinion, the PDUSD(P&R) took the initiative to achieve the same for the NAFI Program
Groups 22 under its purview. The PDUSD(P&R) requested that auditors from the DoD
Office of Inspector General (OIG) review the financial reporting practices for NAFIs.
The review covered four primary areas: DoD policies, accounting for construction-in-
progress, eliminating entry transactions between Military Services headquarters and
installations or regions and between Military Services’ headquarters funds, and prior
period adjustments.

As part of the agreed-upon procedures between the PDUSD(P&R) and the DoD OIG, we
reviewed DoD regulations, directives, and instructions (Guidance). Specifically, we
reviewed the Guidance that affects the financial reporting and the likelihood that DoD
NAFIs could obtain an unqualified opinion on the audited financial statement,
consolidated by Program Groups, for each Military Service. The following are the
auditors’ suggested changes to DoD Guidance that could improve financial reporting and
assist the Military Services in obtaining unqualified audit opinions on their annual
consolidated financial statements by Program Groups. The DoD Instruction 1015.15 is
being revised and will cancel DoD Instruction 1015.14 when it is published.

Any suggested changes to Guidance that refers to DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.

20
   The Military Services refer to these Reports as 1015.15 Submissions, so for the purposes of this report we
will refer to these documents as Report(s).
21
  DoD Instruction 1015.15, “Procedures for Establishment, Management, and Control of Nonappropriated
Fund Instrumentalities and Financial Management of Supporting Resources,” May 25, 2005, paragraph
5.5.2 states the following: “A consolidated financial and management report shall be prepared annually for
each Military Service, and Joint Service NAFI. Each consolidated report shall contain the financial
statements and reports specified at enclosure 7. Ten copies of the annual report shall be submitted to the
PDUSD(P&R) within 120 days following the close of the Program Group fiscal year. The reports shall be
based on or be the basis of annual financial statements that comply with the audit requirements of DoD
Instruction 7600.6.”
22
 DoD Instruction 1015.14 paragraph 4.3 provides that DoD programs or activities and their supporting
NAFIs are classified into one of six Program Groups which are Military Morale, Welfare, and Recreation ,
Armed Services Exchange Programs, Civilian Military Morale, Welfare, and Recreation , Lodging
Program, Supplemental Mission Funds, and Special Purpose Central Funds.



                                                     29
A.      DoD Directive 1015.2, “Military Morale, Welfare, and Recreation
        (MWR),” June 14, 1995
1.a.    Page 7, References (e). (e) DoD Directive 1015.1, “Establishment, Management,
        and Control of Nonappropriated Fund Instrumentalities,” August 19, 1981.

1.b.    Recommended Change. (e) DoD Instruction 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources,” November 22, 2005. 23

1.c.    Justification. DoD Directive 1015.14 canceled DoD Directive 1015.1, and in
        turn, DoD Instruction 1015.14 canceled DoD Directive 1015.14. DoD
        Directive 1015.2 cites a DoD directive that no longer exists as a basis for some of
        its requirements. To preserve the integrity of Directive 1015.2, DoD needs to
        update reference (e) to cite DoD Instruction 1015.14.

2.a.    Page 7, References (f). (f) DoD Directive 1015.8, “DoD Civilian Employee
        Morale, Welfare and Recreation (MWR) Activities and Supporting
        Nonappropriated Fund Instrumentalities (NAFIs),” October 22, 1985.

2.b.    Recommended Change. (f) DoD Instruction 1015.08, “DoD Civilian Employee
        Morale, Welfare, and Recreation (MWR) Activities and Supporting
        Nonappropriated Fund Instrumentalities (NAFI),” December 23, 2005.

2.c.    Justification. DoD Instruction 1015.08 canceled DoD Directive 1015.8.
        Therefore, DoD Directive 1015.2 cites a DoD directive that no longer exists as a
        basis for some of its requirements. To preserve the integrity of Directive 1015.2,
        DoD needs to update reference (f) to cite DoD Instruction 1015.08.

3.a.    Page 7, References (g). (g) DoD Directive 1330.9, “Armed Services Exchange
        Regulations,” December 15, 1986.

3.b.    Recommended Change. (g) DoD Instruction 1330.09, “Armed Services
        Exchange Policy,” December 7, 2005.

3.c.    Justification. DoD Instruction 1330.09 canceled DoD Directive 1330.9.
        Therefore, DoD Directive 1015.2 cites a DoD directive that no longer exists as a
        basis for some of its requirements. To preserve the integrity of Directive 1015.2,
        DoD needs to update reference (g) to cite DoD Instruction 1330.09.

B.      DoD Instruction 1015.08, “DoD Civilian Employee Morale,
        Welfare, and Recreation (MWR) Activities and Supporting
        Nonappropriated Fund Instrumentalities (NAFI),”
        December 23, 2005
1.a.    Page 1, References (d). (d) DoD Directive 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources,” July 16, 2003.

23
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to Guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.



                                                 30
1.b.    Recommended Change. (d) DoD Instruction 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources,” November 22, 2005. 24

1.c.    Justification. DoD Instruction 1015.14, November 22, 2005, canceled DoD
        Directive 1015.14, July 16, 2003. Therefore, DoD Instruction 1015.08 cites a
        DoD directive that no longer exists as a basis for some of its requirements. To
        preserve the integrity of DoD Instruction 1015.08, DoD needs to update reference
        (d) to cite DoD Instruction 1015.14.

2.a.    Page 5, References (f). (f) DoD Directive 1330.9, “Armed Services Exchange
        Policy,” November 27, 2002.

2.b.    Recommended Change. (f) DoD Instruction 1330.09, “Armed Services
        Exchange Policy,” December 7, 2005.

2.c.    Justification. DoD Instruction 1330.09 canceled DoD Directive 1330.9.
        Therefore, DoD Instruction 1015.08 is using a DoD directive that no longer exists
        as a basis for some of its requirements. To preserve the integrity of DoD
        Instruction 1015.08, DoD needs to update reference (f) to cite DoD
        Instruction 1330.09.

C.      DoD Instruction 1015.10, “Programs for Military Morale,
        Welfare, and Recreation (MWR),” November 03, 1995
1.a.    Page 1, References (c). (c) DoD Directive 1015.8, “DoD Civilian Employee
        Morale, Welfare, and Recreation (MWR) Activities and Supporting
        Nonappropriated Fund Instrumentalities (NAFIs),” October 22, 1985.

1.b.    Recommended Change. (c) DoD Instruction 1015.08, “DoD Civilian Employee
        Morale, Welfare, and Recreation (MWR) Activities and Supporting
        Nonappropriated Fund Instrumentalities (NAFI),” December 23, 2005.

1.c.    Justification. DoD Instruction 1015.08 canceled DoD Directive 1015.8.
        Therefore, DoD Instruction 1015.10 cites a DoD directive that no longer exists as
        a basis for some of its requirements. To preserve the integrity of DoD
        Instruction 1015.10, DoD needs to update reference (c) to cite DoD
        Instruction 1015.08.

2.a.    Page 1, References (d). (d) DoD Directive 1330.9, “Armed Services Exchange
        Regulations,” December 15, 1986.

2.b.    Recommended Change. (d) DoD Instruction 1330.09, “Armed Services
        Exchange Policy,” December 7, 2005.

2.c.    Justification. DoD Instruction 1330.09 canceled DoD Directive 1330.9.
        Therefore, DoD Instruction 1015.10 cites a DoD directive that no longer exists as
        a basis for some of its requirements. To preserve the integrity of DoD

24
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to Guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.



                                                 31
        Instruction 1015.10, DoD needs to update reference (d) to cite DoD
        Instruction 1330.09.

3.a.    Page 17, References (e). (e) DoD Instruction 1015.1, “Establishment,
        Management and Control of Nonappropriated Funds Instrumentalities,”
        August 19, 1981.

3.b.    Recommended Change. (e) DoD Instruction 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources,” November 22, 2005. 25

3.c.    Justification. DoD Instruction 1015.1 does not exist. However, the title of the
        instruction in reference (e) is similar to the title of DoD Directive1015.1 and both
        have the same date. Therefore, it is possible that when DoD Instruction 1015.10
        was drafted the word “Instruction” was substituted for “Directive.” If that is the
        case, to preserve the integrity of this instruction, DoD needs to update
        reference (e) of this instruction with DoD Instruction 1015.14.

4.a.    Page 15, Paragraph 5.2.4. Fund MWR programs with the proper fund sources.
        Ensure respective funding’[sic] streams are identified in annual budgts[sic] to
        meet MWR goals.

4.b.    Recommended Change. Fund MWR programs with the proper fund sources and
        include a reference that lists the approved types of funds. Identify respective
        funding streams in annual budgets to assist MWR activities in meeting their
        goals.

4.c.    Justification. The current version of the instruction includes the typos “budgts”
        and “funding’”, which should be corrected to improve the readability of
        Instruction 1015.10. In addition, the instruction should refer to a list of the types
        of funding that are considered to be “proper fund sources,” and should explain
        under which circumstances those funds should be used. We based our conclusion
        on discovering that appropriated funds were treated as an equity adjustment, even
        though the criteria stated that those types of transactions were not equity
        adjustments. Finally, the phrase “to meet MWR goals” is vague. By adding the
        phrase, “to assist MWR activities in meeting their mission,” informs the Heads of
        DoD Components that using budgets will assist them in meeting the goals for the
        MWR fund(s) that they are responsible for managing.

D.      DoD Instruction 1015.14, “Establishment, Management, and
        Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources,”
        November 22, 2005 (currently in coordination)
        When the DoD OIG announced this project, DoD Instruction 1015.14 was
        up-to-date. However, on June 23, 2006, the PDUSD(P&R) asked the DoD OIG
        to review and comment on the new DoD Instruction 1015.15. Further, the new
        DoD Instruction 1015.15 would cancel the existing DoD Instruction 1015.14 and

25
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to Guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.



                                                 32
       incorporate the contents of the outdated instruction into the new instruction. As a
       result, the DoD OIG will not provide additional comments on DoD
       Instruction 1015.14.


E.     DoD Instruction 1015.15, “Procedures for Establishment,
       Management, and Control of Nonappropriated Fund
       Instrumentalities and Financial Management of Supporting
       Resources,” May 25, 2005 (currently in coordination)
       When the DoD OIG announced this project, DoD Instruction 1015.15 was
       up-to-date. However, in June 23, 2006, the PDUSD(P&R) asked the DoD OIG to
       review and comment on the new DoD Instruction 1015.15, which cancels DoD
       Instruction 1015.14 and incorporates the contents of the outdated report
       instruction into the new DoD Instruction 1015.15. As a result, the DoD OIG will
       not provide additional comments on the DoD Instruction 1015.15, dated May 25,
       2005.


F.     Draft DoD Instruction 1015.15, “Establishment, Management,
       and Control of Nonappropriated Fund Instrumentalities and
       Financial Management of Supporting Resources,” (currently in
       coordination)
       DoD OIG commented on the new DoD Instruction 1015.15 in July 2006, and did
       not include any audit findings or information related to this agreed-upon
       procedures engagement. In addition, the original DoD OIG review of the
       instruction did not discuss requirements for audits of NAFI Program Groups by
       Independent Public Accounting firms.

1.a.   Page 6, Paragraph 4.9. The DoD Component or Military Service headquarters’
       designee shall maintain management and financial information and submit annual
       consolidated financial and management reports in accordance with Enclosure 8.

1.b.   Recommended Change. The DoD Component or Military Service headquarters’
       designee shall maintain management and financial information and submit annual
       financial and management reports consolidated by Program Group, as defined in
       DoD Instruction 1015.14, paragraph 4.3, in accordance with Enclosure 8.
1.c.   Justification. When we planned our agreed-upon procedures engagement, the
       PDUSD(P&R) stated that its goal was to obtain unqualified audit opinions on the
       consolidated financial statements by Program Group for each of the Military
       Services. If the PDUSD(P&R) is to attain its goal, it needs to clearly state in DoD
       Instruction 1015.15 that the financial statements and reports for each Military
       Service must be consolidated by Program Group.

2.a.   Page 7, Paragraph 4.14. The Heads of the DoD Components shall provide for
       the periodic review and audit of NAFIs to assure continued need for the functions
       performed and that those needs are being met in accordance with sound business
       practices.

2.b.   Recommended Change. Add the following sentence at the end of the paragraph:
       “In addition, audits of the financial statements consolidated by Program Group for
       each Military Service shall be audited annually.”

                                           33
2.c.   Justification. Paragraph 4.14 is vague because it does not clearly state how
       frequently the NAFIs should be reviewed or audited, and it does not distinguish
       between performance audits and financial statement audits. By adding the
       suggested sentence, PDUSD(P&R) will have a specific requirement for auditing
       the financial statements consolidated by Program Group for each Military Service
       on an annual basis.

3.a.   Page 11, Paragraph 6.3.2. The DoD Component shall determine the format as
       long as data allows for management analysis of each Funding Category within a
       Program Group, to provide for budget to actual comparisons to financial
       statements, and to evaluate performance against program plans.

3.b.   Recommended Change. PDUSD(P&R) should take out the reference to the
       DoD Components and rewrite this paragraph explaining why the Program
       Groups’ budgets should have a standard DoD format. In addition, the
       PDUSD(P&R) should include a template for the standard budget format as part of
       one of its enclosures to this instruction.

3.c.   Justification. The requirement as currently drafted allows each DoD Component
       to develop its own format for the budget in question. Each DoD Component
       could present a budget in a different format, and might present a different type of
       data than the other Components. Therefore, because the purpose of each NAFI
       Program Group is similar, regardless of DoD Component, the PDUSD(P&R)
       should develop a standard format for the budgets in question to establish
       consistency throughout DoD.

4.a.   Page 11, Paragraph 6.4.2. Transactions between NAFIs within a Program
       Group shall be recorded concurrently and elimination entries made before issuing
       consolidated financial reports.

4.b.   Recommended Change. Transactions between NAFIs within a Program Group
       shall be recorded concurrently and elimination entries made before the issuance
       of consolidated financial reports, by Program Group, for each Military Service.

4.c.   Justification. The intention of PDUSD(P&R) is to attain unqualified audit
       opinions on the consolidated financial statements by Program Group.
       Paragraph 6.4.2 should state that each Military Service must consolidate the
       financial reports by Program Group.

5.a.   Page 11, Paragraph 6.4.2.2. Extraordinary income or expense shall be shown in
       the financial statements separately from ordinary operations and footnoted.

5.b.   Recommended Change. Extraordinary income or loss shall be shown in the
       consolidated financial statements by Program Group after revenue and expenses
       from ordinary operations. In addition, extraordinary income or loss shall be
       footnoted.

5.c.   Justification. Paragraph 6.4.2.2 is vague because it does not state clearly where
       in the financial statements the extraordinary items will be reported. As a result,
       each Military Service can report extraordinary items in a separate part of the
       financial statements; for example, either above or below ordinary operations.




                                           34
       Appendix D of the Financial Accounting Standards Board (FASB) Interpretation
       18, “Accounting for Income Taxes in Interim Periods,” March 1977, page 36,
       shows a sample presentation for an income statement with an extraordinary item.

6.a.   Page 12, Paragraph 6.4.2.3. Follow-on distribution of grants and dividends shall
       be recorded as “other expense.”

6.b.   Recommended Change. The sentence requiring follow-on distributions of
       grants and dividends to be recorded as “other expense” should be removed from
       paragraph 6.4.2.3.

6.c.   Justification. The requirement for recording follow-on distributions of grants
       and dividends as “other expense” makes it possible for the NAFIs to record
       expenses or revenues twice, depending on the NAFI needs at the time of the
       transaction. Recording follow-on distributions of grants and dividends as “other
       expenses” makes it difficult to track the transactions. As a result, the records of
       the entity are not clear, preventing management and independent auditors from
       understanding the nature of the transactions. Furthermore, during the
       performance of our agreed-upon procedures, we discovered that at least two
       different Military Services were treating transfers of funds within a Program
       Group as grant expenses. The first Military Service was treating major
       construction projects at the headquarters level as a grant expense, and once the
       asset was completed, the Military Service would transfer it to the installation.
       The second Military Service transferred funds from its headquarters fund to its
       installations to purchase equipment. The Military Service recorded this transfer
       as a grant expense. However, in the auditors’ opinion, both of those transfers
       should have been treated as equity transactions between the headquarters funds
       and the installation funds, as required by the DoD 7000.14, “Financial
       Management Regulation (FMR), volume 13, chapter 3, Assets,” August 1994.
       Moreover, during the consolidation of each Program Group, the equity
       transactions for major construction and equipment transfers between headquarters
       and the installations should have been eliminated. In our opinion, eliminating the
       previously discussed sentence in paragraph 6.4.2.3 would assist PDUSD(P&R) in
       preventing the Military Services from improperly recording nonmonetary (fixed
       assets) transfers between NAFIs as grant expenses.

7.a.   Page 12, Paragraph 6.4.2.6. Tangible fixed assets, except construction in
       progress, shall be depreciated over their expected useful lives. Depreciation and
       amortization shall be established and reported on financial statements. The DoD
       Components shall utilize the straight-line method of depreciation and prescribe
       the useful lives of assets and disclose them in the notes to the financial
       statements.

7.b.   Recommended Change. The PDUSD(P&R) should coordinate with the Office
       of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
       (OUSD[C]/CFO) to develop a standard schedule of useful lives for fixed assets
       that the DoD NAFIs own. Ideally, the schedule should mirror the one presented
       in Table 6-7 of DoD FMR, volume 4, chapter 6, “Property, Plant, and
       Equipment,” July 2006, to maintain consistency throughout DoD. We also
       suggest that the schedule for useful lives be included in DoD FMR, volume 13,
       chapter 3, “Assets,” August 1994, and DoD Instruction 1015.15.

7.c.   Justification. Because the OUSD(C)/CFO is responsible for promulgating DoD
       accounting policy, the PDUSD(P&R) should coordinate the development of a

                                           35
        schedule for useful lives with OUSD(C)/CFO. It should be noted that allowing
        each NAFI or Military Service to develop its own estimated standard for useful
        lives will prevent DoD managers from comparing the financial statements
        published by each Program Group and by each Military Service. Furthermore, to
        maintain uniformity among the NAFIs and across DoD, the useful lives schedule
        should mirror the one that is already in Table 6-7 of DoD FMR, volume 4,
        chapter 6.

8.a.    Page 12, Paragraph 6.4.2.6.1. The Armed Services Exchanges shall: Assign an
        expected useful life within the following parameters:

8.b.    Recommended Change. As previously stated, the PDUSD(P&R) should
        coordinate with OUSD(C)/CFO to develop a standard schedule of useful lives for
        all of the NAFIs to follow. Therefore, section 6.4.2.6.1 should be substituted with
        uniform depreciation requirements for all NAFIs and not just for the Armed
        Services Exchanges. Finally, the previously addressed depreciation requirements
        should be included in both this section of DoD Instruction 1015.15 and in
        DoD FMR, volume 13, chapter 3.

8.c.    Justification. The product of this coordinated effort should be a uniform
        depreciation schedule for NAFIs that should be published in both DoD
        Instruction 1015.15 and in DoD FMR, volume 13, chapter 3. Additionally, the
        uniform depreciation schedule should mirror the one published in Table 6-7 of
        DoD FMR, volume 4, chapter 6. Implementing this suggestion will allow DoD
        Managers to compare the financial information that the NAFIs publish, but they
        will also be able to compare it with other revenue-producing entities within DoD.

9.a.    Page 13, Paragraph 6.4.2.6.1.2. Salvage value shall not be computed on real
        property assets.

9.b.    Recommended Change. Paragraph 6.4.2.6.1.2 should read, “For purposes of
        computing depreciation, real property assets do not have salvage value.” In
        addition, the PDUSD(P&R) should coordinate the requirement in paragraph
        6.4.2.6.1.2 with OUSD((C)/CFO), and included in DoD FMR, volume 13,
        chapter 3, to prevent conflicts between the two publications.

9.c.    Justification. The requirement implies that the entity will be unable to earn
        salvage value from the disposal of real property assets. The suggested change
        clearly states that for purposes of computing depreciation, real property assets
        will not have a salvage value. In addition, the recommended change is an excerpt
        from DoD FMR, volume 4, chapter 6; thus it provides uniform accounting policy
        for salvage values across DoD.

10.a.   Page 13, Paragraph 6.4.2.8. The DoD Components shall jointly establish and
        maintain a uniform chart of accounts and common financial reporting procedures
        in accordance with Reference (z). The chart of accounts and common financial
        reporting procedures shall be updated annually and submitted to the
        PDUSD(P&R) by October 1 of each year.

10.b.   Recommended Change. Paragraph 6.4.2.8 should include a reference to the
        uniform chart of accounts. Furthermore, PDUSD(P&R) should coordinate with
        OUSD(C)/CFO to develop a uniform chart of accounts for all of the NAFIs that
        either uses the uniform chart of accounts as a basis for the exchanges or a hybrid
        of the U.S. Standard General Ledger (USSGL).

                                            36
10.c.   Justification. Including a reference to the document that publishes the uniform
        chart of accounts or including it as an enclosure to this instruction will make it
        easier for the intended users of this instruction to access the chart of accounts. In
        addition, to achieve comparability and consistency among the DoD NAFIs, they
        should use the same uniform chart of accounts. Basing the new uniform chart of
        accounts on the one that the Armed Services Exchanges use or developing a
        hybrid based on the USSGL will ease the transition from multiple charts of
        accounts to a single uniform chart of accounts for all NAFIs.

11.a.   Page 14, Paragraph 6.5.2. A consolidated financial and management report
        shall be prepared annually for each Military Service and Joint Service NAFI.
        Each consolidated report shall contain the financial statements and reports
        specified at Enclosure 8. The report shall be submitted in the specified software
        and media to the PDUSD(P&R) within 120 days following the close of the
        Program Group fiscal year. The reports shall be based on or be the basis of
        annual financial statements that comply with the audit requirements of Reference
        (ac). Any material differences discovered subsequent to the submission of the
        reports shall be immediately reported to the PDUSD(P&R) and the deviation fully
        disclosed in the accompanying auditor’s statement and footnotes.

11.b.   Recommended Change. A consolidated financial and management report shall
        be prepared annually, by Program Group, for each Military Service and Joint
        Service NAFI. Each report that is consolidated by Program Group shall contain
        the financial statements and reports specified at Enclosure 8. The report shall be
        submitted in the specified software and media to the PDUSD(P&R) within 120
        days following the close of the Program Group’s fiscal year. The report shall be
        based on the consolidated audited financial statements by Program Group issued
        by each Military Service. Any material differences after the reports are submitted
        shall be immediately reported to the PDUSD(P&R) and fully disclosed in the
        accompanying auditor’s statement and footnotes.

11.c.   Justification. We understand that the PDUSD(P&R) goal is to obtain unqualified
        audit opinions for the consolidated financial statements of each Program Group
        for each Military Service. As a result, we provided the previously mentioned
        suggestion for paragraph 6.5.2. Our suggested changes make clear that the
        financial statements being discussed in the paragraph are the ones being
        consolidated for each Program Group for each Military Service and that the
        annual reports will also be consolidated by Program Group and will use the
        previously mentioned financial statements as a basis.

12.a.   Page 15, Paragraph 6.7.4.2. A financial statement audit is required annually and
        a more comprehensive audit to include fund administration and internal controls
        is required at least biannually.

12.b.   Recommended Change. A consolidated financial statement audit of each
        Program Group for each Military Service is required annually. As part of the
        consolidated financial statement audit by Program Group, the auditors shall test
        the adequacy of internal controls and compliance with laws and regulations. In
        addition, a more comprehensive audit to include fund administration is required at
        least biannually.

12.c.   Justification. Government Auditing Standards (Government Accountability
        Office Yellow Book) require that as part of an opinion or disclaimer on financial
        statements, the auditors include in their reports on the financial statements either

                                             37
        a: (1) description of the scope of the auditors’ testing of internal controls for
        financial reporting and compliance with laws, regulations, and provisions of
        contracts or grant agreements and the results of those tests or an opinion, if
        sufficient work was performed, or (2) reference to the separate report(s)
        containing that information.

13.a.   Page 16, Paragraph 6.7.5.3. The Armed Services Exchanges shall also include,
        as part of their annual year-end certified financial audit, an overview report that
        comments on the financial status of the credit program.

13.b.   Recommended Change. The Armed Services Exchanges shall also include, as
        part of their annual year-end audited consolidated financial statements (conducted
        by an Independent Public Accounting [IPA] firm) by Program Group for each
        Military Service, an overview report that comments on the financial status of the
        credit program.

13.c.   Justification. The requirement is confusing because it does not clearly state that
        the financial statements must be audited by an IPA firm. Furthermore, the
        requirement does not state that the financial statements in question will be
        consolidated by Program Group for each Military Service. As previously stated,
        it is our understanding that PDUSD(P&R) wants each Military Service to obtain
        unqualified audit opinions on the consolidated financial statements by Program
        Group.

14.a.   Page 20, Paragraph 6.8. The DoD Components shall provide for the periodic
        review and audit of NAFIs, as required in Reference (ac) and DoD
        Directive 7600.2 (Reference (br)).

14.b.   Recommended Change. DoD Components shall provide for the annual audit of
        financial statements by an IPA firm. In the case of reviews and audits that are not
        related to financial statements, the DoD Components shall provide for the
        periodic review and audit of NAFIs. All reviews and audits of NAFIs shall be
        performed in accordance with Reference (ac) and DoD Directive 7600.2
        (Reference (br)).

14.c.   Justification. Paragraph 6.8 does not distinguish between financial statement
        audits and performance audits. Furthermore, financial statement audits should be
        performed on an annual basis. However, for nonfinancial audits and reviews the
        PDUSD(P&R) should determine how frequently these type of engagements
        should be performed and the subjects that should be reviewed.

15.a.   Page 20, Paragraph 6.8.2. Each Military Service shall require an annual
        Service-wide audit of its NAFIs by an independent audit organization. These
        audits shall include the Headquarters NAFIs and such intermediate-level and
        individual NAFIs as may be necessary for the auditors to express an opinion on
        the NAFI financial statements of the Military Services. Audits by certified public
        accountants shall comply with Reference (ac).

15.b.   Recommended Change. Each Military Service shall require an annual Service-
        wide audit of the consolidated financial statements of each Program Group,
        performed by an independent certified public accounting (CPA) firm. These
        audits shall include the Headquarters NAFIs and such intermediate-level and
        individual NAFIs as may be necessary for the auditors to express an opinion on
        the NAFI consolidated financial statements of each Program Group for the

                                              38
        Military Services. The previously described audits shall comply with
        Reference (ac).

15.c.   Justification. The PDUSD(P&R) wants each Military Service to obtain
        unqualified audit opinions on the consolidated financial statements of each
        Program Group. The PDUSD(P&R) also wants the audits in question to be
        performed by an independent CPA firm and all NAFI audits performed in
        accordance with Reference (ac).

16.a.   Page 21, Paragraph 7.1. The annual consolidated financial and management
        report required by subparagraph 5.5.2. has been assigned Report Control Symbol
        DD-P&R(A)1344 in accordance with DoD 8910.1-M (Reference (bt)).

16.b.   Recommended Change. The annual consolidated financial and management
        report of each Program Group for each Military Service required by
        subparagraph 6.5.2. has been assigned Report Control Symbol DD-P&R(A) 1344
        in accordance with DoD 8910.1-M (Reference (bt)).

16.c.   Justification. The PDUSD(P&R) wants each Military Service to obtain an
        unqualified audit opinion on the consolidated financial statements of each
        Program Group. The reports in question must be based on the consolidated
        financial statements of each Program Group for each Military Service.
        Furthermore, DoD Instruction 1015.15 does not have a paragraph numbered 5.5.2.
        However, paragraph 6.5.2 does require each Military Service and Joint Service
        NAFI to preparation prepare an annual consolidated financial report.

17.a.   Page 21, Paragraph 7.2. The annual treasury management report required by
        subparagraph 5.7.4.1. is exempt from licensing in accordance with
        paragraph C4.4.6. of Reference (bt).

17.b.   Recommended Change. The annual treasury management report required by
        subparagraph 6.7.4.1. is exempt from licensing in accordance with
        paragraph C4.4.6.of Reference (bt).

17.c.   Justification. DoD Instruction 1015.15 does not have a subparagraph
        numbered 5.7.4.1. However, subparagraph 6.7.4.1 requires the nonappropriated
        fund treasury managers of the DoD Component Headquarters to present the
        results of their most recent “Annual NAF Treasury Management Report” at an
        annual meeting with representatives from the offices of PDUSD(P&R) and
        OUSD(C)/CFO. In addition, contrary to the statement in paragraph 7.2,
        subparagraph 6.7.4.1 only requires an annual meeting between representatives
        from PDUSD(P&R), OUSD(C)/CFO and the DoD Components to discuss the
        most recent annual treasury management report, but makes no reference to the
        requirement of preparing a report. Therefore, we suggest that PDUSD(P&R)
        either modify paragraph 7.2 to reflect the information presented in
        subparagraph 6.7.4.1 or add a requirement for the preparation of an annual
        treasury management report in subparagraph 6.7.4.1.

18.a.   Page 56, Paragraph E8.1.1. The consolidated financial report submitted for
        each Program Group shall include:

18.b.   Recommended Change. The consolidated financial report submitted for each
        Program Group for each Military Service shall include:


                                            39
18.c.   Justification. The PDUSD(P&R) wants each Military Service to obtain
        unqualified audit opinions on the consolidated financial statements for each
        Program Group. In addition, the reports in question should be based on the
        consolidated financial statements for each Program Group for each Military
        Service.

19.a.   Page 56, Paragraph E8.1.2.2.3. The annual Sales, Profits, and Dividends Report
        shall be submitted with preliminary figures by February 15 of each year and the
        final report submitted with the consolidated financial report (E8.A8.).

19.b.   Recommended Change. The annual Sales, Profits, and Dividends Report shall
        be submitted with preliminary figures by February 15 of each year and the final
        report submitted with the consolidated financial report of each Program Group for
        each Military Service.

19.c.   Justification. The PDUSD(P&R) wants each Military Service to obtain
        unqualified audit opinions on the consolidated financial statements for each
        Program Group. The reports in question should be based on the consolidated
        financial statements of each Program Group for each Military Service.

20.a.   Page 57, Paragraph E8.1.3. The annual report shall include a narrative for each
        Program Group to ensure clarity in the data reported and to highlight significant
        operations and trends. The narrative shall meet standards of full disclosure.

20.b.   Recommended Change. The annual report consolidated for each Program
        Group of each Military Service shall include a clear narrative discussing the data
        reported and highlighting significant operations and trends. The narrative shall
        meet standards of full disclosure.

20.c.   Justification. The PDUSD(P&R) wants each Military Service to obtain
        unqualified audit opinions on the consolidated financial statements of each
        Program Group. The reports in question should be based on the consolidated
        financial statements of each Program Group for each Military Service.

21.a.   Page 57, Paragraph E8.1.4. Each Program Group shall provide notes to the
        financial statements in accordance with the managerial accounting practices at
        subparagraph 5.4.2. of this Instruction.
21.b.   Recommended Change. Each Military Service shall provide notes on the
        consolidated financial statements of each Program Group in accordance with the
        managerial accounting practices at subparagraph 6.4.2. of this Instruction.
21.c.   Justification. The PDUSD(P&R) wants each Military Service to obtain
        unqualified audit opinions on the consolidated financial statements of each
        Program Group. In addition, this instruction does not have a paragraph
        numbered 5.4.2; however, paragraph 6.4.2 and its subsections do discuss
        managerial accounting practices for the NAFIs.

22.a.   Page 57, Paragraph E8.1.4.1. Footnotes to the financial statements shall
        disclose the nature and amount of material transactions between Program Groups.

22.b.   Recommended Change. Footnotes in the consolidated financial statements of
        each Program Group for each Military Service shall disclose the nature and
        amount of material transactions between Program Groups. In addition, this

                                            40
        section should include a methodology for determining a materiality threshold or a
        dollar value that should be used as the materiality threshold; for example, all
        transactions between Program Groups that exceed $50,000.

22.c.   Justification. The PDUSD(P&R) wants each Military Service to obtain
        unqualified audit opinions on the consolidated financial statements of each
        Program Group. Furthermore, because DoD Instruction 1015.15 does not define
        materiality, one of the Military Services informed us that it did not track, or even
        disclose, transactions between Program Groups. Therefore, to prevent this
        situation from repeating itself, the PDUSD(P&R) should define what constitutes a
        material transaction between Program Groups.

23.a.   Page 57, Paragraph E8.1.4.3. The Balance Sheet, Statement of Income and
        Expense, and Schedule A - APF and NAF Expense Summary Reports shall be
        footnoted to disclose the amount of DoD MWR USA support, UFM support, or
        other APF support included in the NAFI financial statements.

23.b.   Recommended Change. The Balance Sheet, Statement of Income and Expense,
        and Schedule A - APF and NAF Expense Summary Reports shall include a
        footnote that discloses the amount of DoD MWR USA support, UFM support, or
        other APF support included in the NAFI consolidated financial statements of each
        Program Group for each Military Service.

23.c.   Justification. The PDUSD(P&R) wants each Military Service to obtain
        unqualified audit opinions on the consolidated financial statements of each
        Program Group.

24.a.   Page 77, E9.4.1.2. When dealing with financial institutions and their insurers, it
        is imperative that the NAFI be properly established in writing and designated.
        Complete and current documentation of all those permitted to make withdrawals
        or otherwise direct actions related to the account shall be provided to the financial
        institution.

24.b.   Recommended Change. PDUSD(P&R) should define the term “designated.” In
        addition, this paragraph should include alternative procedures that can be used to
        validate and support the existence of a NAFI.

24.c.   Justification. The term “designated” should be defined because the sentence is
        confusing to the reader. Also, during our performance of the agreed-upon
        procedures, we discovered that the Military Services were either not in possession
        of or did not provide us with supporting documentation for establishing nearly all
        of their NAFIs. Therefore, we suggest that PDUSD(P&R) ask the Military
        Services to validate the existence of its NAFIs and to use alternative processes to
        document their existence.

25.a.   Page 92, Paragraph E9.A.3. Independent Financial and Compliance Audits
        Conducted Since Last Report:

25.b.   Recommended Change. The PDUSD(P&R) should define the meaning of the
        word “independent” and include the word “Statement” after the word “Financial”
        if the engagement is related to an audit of the financial statements.




                                             41
25.c.   Justification. The term “independent” is vague. The PDUSD(P&R) should
        clarify whether it refers to independent financial statement audits performed by an
        IPA firm or by an entity similar to the DoD OIG.

26.a.   Page 100, Paragraph E10.2.4.5. Documentation to include Financial
        Accounting Standard 133 and International Swap Dealers Association (ISDA)
        agreements.

26.b.   Recommended Change. The PDUSD(P&R) and OUSD((C)/CFO) should reach
        a consensus on the type of accounting standards that the NAFIs are required to
        follow. In other words, whether the NAFIs are required to follow the
        pronouncements published by either the Federal Accounting Standards Advisory
        Board (FASAB) (Federal entities) or the FASB (private sector entities).

26.c.   Justification. The FASAB accounting principles are also considered to be
        generally accepted accounting principles (GAAP) as defined in American
        Institute of Certified Public Accountants (AICPA) Codification of Auditing
        Standards, AU 411.14. Federal entities can rely on AICPA and FASB
        pronouncements specifically made applicable to federal governmental entities by
        FASAB Statements or Interpretations. Further, the DoD FMR, volume 13,
        chapter 1, “Nonappropriated Fund Accounting,” January 2004, section B, “GAAP
        Hierarchy,” page 1-6, identifies FASB only as being part of the GAAP hierarchy,
        which may indicate that DoD intended the NAFIs to use FASB accounting
        principles. The FASAB website states the following in relation to GAAP
        hierarchy:
               The AICPA Council designated FASAB as the body that establishes
               accounting principles for federal entities. The AICPA’s hierarchy of
               generally accepted accounting principles in Statement of Auditing
               Standards (SAS) No. 91, The Federal GAAP Hierarchy, governs what
               constitutes GAAP for U.S. government reporting entities. The
               hierarchy lists the priority sequence of sources that an entity should
               look to for accounting and reporting guidance.

        In addition, the FASAB website also includes the Federal hierarchy of GAAP.

G.      DoD Instruction 1330.09, “Armed Services Exchange Policy,”
        December 7, 2005 (currently in coordination)
        When DoD OIG announced this project, DoD Instruction 1330.09 was up-to-date.
        However, in August 2006, PDUSD(P&R) informed the auditors that the
        instruction had been sent to formal coordination. Further, PDUSD(P&R)
        explained that DoD Instruction 1330.21 was being coordinated and that it would
        cancel DoD Instruction 1330.09 when DoD Instruction 1330.21 is published.

1.a.    Page 8, References and (i). (i) DoD Directive 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources,” July 16, 2003.




                                                42
1.b.    Recommended Change. (i) DoD Instruction 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources,” November 22, 2005. 26

1.c.    Justification. DoD Instruction 1015.14 canceled DoD Directive 1015.14.
        Therefore, DoD Instruction 1330.09 is using a DoD directive that no longer exists
        as a basis for some of its requirements. To preserve the integrity of the
        instruction, DoD needs to update reference (i) of the instruction with DoD
        Instruction 1015.14.

2.a.    Page 3, Paragraph 4.6. Methods of Operation. Each Military Department shall
        organize and operate its exchange system(s) in the most efficient and cost-
        effective way to meet Service-unique needs, maintain good customer service,
        ensure competitive pricing, and continue support for military MWR programs,
        unless prohibited by DoD policy. The Armed Services exchanges shall initiate
        and maintain best business practices through independent and cooperative efforts
        to maximize efficiencies, which shall offset operational costs, ensure
        modernization of facilities, improve patron services, and ensure continued
        contributions to military MWR programs, unless prohibited by DoD policy.

2.b.    Recommended Change. This section of the regulation should explain the basis
        for measuring efficiency and cost-effectiveness; in addition, the section should
        include the benchmarks for efficiency and cost-effectiveness that will be used to
        measure the performance of the exchanges. Also, this paragraph should define
        the type of “best business practices” to make this paragraph clearer.

2.c.    Justification. If a basis for determining efficiency and cost-effectiveness is not
        provided to the Military Services, they will be forced to develop their own basis
        for measuring efficiency and cost-effectiveness, which may differ from Military
        Service to Military Service. As a result, the Office of the Secretary of Defense
        (OSD) will be unable to compare the performance of one Military Service against
        another and truly manage exchanges in the most efficient and cost-effective
        manner. In addition, the term “best business practices” is vague and open for
        interpretation. Therefore, OSD should define the term “best business practices”
        and identify those in question to allow the Military Services to manage the
        exchanges in the way the OSD intended.

H.      DoD Instruction 1330.21, “Armed Services Exchange
        Regulations.” July 14, 2005 (currently in coordination)
        When the DoD OIG announced this project, DoD Instruction 1330.21 was
        current. However, on August 2006, the PDUSD(P&R) informed the auditors that
        the instruction had been sent for formal coordination.

1.a.    Page 1, References and (b). (b) DoD Directive 1330.9, “Armed Services
        Exchange Policy,” November 27, 2002.



26
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to Guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.



                                                 43
1.b     Recommended Change. (b) DoD Instruction 1330.09, “Armed Services
        Exchange Policy” December 7, 2005.

1.c.    Justification. DoD Instruction 1330.09 canceled DoD Directive 1330.9.
        Therefore, DoD Instruction 1330.21 is using a DoD directive that no longer exists
        as a basis for some of its requirements. To preserve the integrity of this
        instruction, DoD needs to update reference (b) of this instruction with DoD
        Instruction 1330.09.

2.a.    Page 1, References and (d). (d) DoD Directive 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources,” July 16, 2003.

2.b.    Recommended Change. (d) DoD Instruction 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources” November 22, 2005. 27

2.c.    Justification. DoD Instruction 1015.14. canceled DoD Directive 1015.14.
        Therefore, DoD Instruction 1330.21 is using a DoD directive that no longer exists
        as a basis for some of its requirements. To preserve the integrity of this
        instruction, DoD needs to update reference (d) with DoD Instruction 1015.14.

3.a.    Page 8, Reference (ab). (ab) DoD Audit of Nonappropriated Fund
        Instrumentalities And Related Activities,” January 16, 2004.

3.b.    Recommended Change. (ab) DoD Instruction 7600.6 “DoD Audit of
        Nonappropriated Fund Instrumentalities And Related Activities,”
        January 16, 2004.

3.c.    Justification. The instruction includes the title of the criteria that it is
        referencing, but does not state whether it is a regulation, manual, directive, or
        instruction, and it does not include a number to identify the criteria in question.
        Based on the title that appears in reference (ab) of DoD Instruction 1330.21, the
        auditors concluded that the criteria being referenced are in DoD Instruction
        7600.6 “DoD Audit of Nonappropriated Fund Instrumentalities And Related
        Activities,” January 16, 2004.

4.a.    Enclosure 2.

4.b.    Recommended Change. Enclosure 2 should include the definition of Program
        Group II - Armed Services Exchanges.

4.c.    Justification. DoD Instruction 1015.15 states that “Program Group II - Armed
        Services Exchanges and Program Group III - Civilian MWR programs are defined
        in DoD Instruction 1330.21 and DoD Directive 1015.8.” Although DoD
        Instruction 1330.21 states that terms used in the instruction are defined in
        Enclosure 2, we were unable to find a definition for either Program Group II or
        Armed Services Exchanges in Enclosure 2 or in the rest of DoD
        Instruction 1330.21. As a result, the auditors concluded that the definition of

27
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to Guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.



                                                 44
        Program Group II - Armed Services Exchanges needs to be included in
        enclosure 2.


I.      DoD Instruction 4105.71, “Nonappropriated Fund (NAF)
        Procurement Procedure,” February 26, 2001 (currently in
        coordination)
        When the DoD OIG announced this project, DoD Instruction 4105.71 was
        current. However, on August 2006, the PDUSD(P&R) informed us that the
        instruction was going to be sent out shortly for formal coordination.

1.a.    Page 1, References (b). (b) DoD Directive 1015.1, “Establishment, Management,
        and Control of Nonappropriated Fund Instrumentalities,” August 19, 1981.

1.b.    Recommended Change. (b) DoD Instruction 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources” November 22, 2005. 28

1.c.    Justification. DoD Directive 1015.14 canceled DoD Directive 1015.1 and, in
        turn, was canceled by DoD Instruction 1015.14. Therefore, DoD
        Instruction 4105.71 is using a DoD directive that no longer exists as a basis for
        some of its requirements. To preserve the integrity of the instruction, DoD needs
        to update reference (b) with DoD Instruction 1015.14.

J.      DoD Regulation 1015.8, “DoD Civilian Employee Morale,
        Welfare, and Recreation (MWR) Activities and Supporting
        Nonappropriated Fund Instrumentalities (NAFIs) Regulation,”
        November 1985
1.a.    Paragraph C3.2.4.2. DoD Directive 1015.1 (reference (a)) requires DoD
        Components to provide for the periodic review and audit of NAFIs. Audits also
        concern the authorization for functions being performed, as well as their being
        conducted in accordance with the policies referenced herein. In accordance with
        DoD Instruction 7600.6 (reference (l)), the normal NAFI audit cycle is every
        other fiscal year.

1.b.    Recommended Change. Change the paragraph to read as follows: DoD
        Instruction 1015.14 29 shall require the Heads of the DoD Components to review
        and audit NAFIs periodically. The purpose of the reviews and audits is to
        determine whether there is a continued need for the functions being performed
        and whether those needs comply with sound business practices. NAF audit policy
        is explained in DoD Instruction 7600.6.



28
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.
29
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to Guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.



                                                  45
1.c.    Justification. DoD Directive 1015.14 canceled DoD Directive 1015.1 which, in
        turn, was canceled by DoD Instruction 1015.14. The wording in
        DoD 1015.8 Regulation should refer to the current guidance.


K.      DoD Instruction 7600.6, “Audit of Nonappropriated Fund
        Instrumentalities and Related Activities,” January 16, 2004
1.a.    Paragraph E2.1.3. Annual financial audits, as defined by reference (d), shall be
        conducted for all NAFIs with annual revenues or expenses that exceed $7 million
        and those NAFIs with operations deemed to be highly sensitive (e.g., potential
        fraud, large public exposure, etc.). The Office of the IG DoD shall approve
        exceptions to the dollar limitation in writing. Other audits should be completed as
        deemed necessary by management based on risk assessments and within resource
        availability.

1.b.    Recommended Change. Change the paragraph to read as follows: Annual
        financial statement audits, as defined by reference (d), shall be conducted for all
        NAFIs with annual revenues or expenses that exceed $7 million and those NAFIs
        with operations deemed to be highly sensitive (e.g., potential fraud, large public
        exposure). Each of the Military Services shall require annual consolidated
        financial statement audits for each of the six Program Groups as defined by DoD
        Instruction 1015.14, 30 section 4.3, with annual revenues or expenses that
        exceed $1 million. The DoD OIG shall approve exceptions to the dollar
        limitation in writing. Other audits should be completed as deemed necessary by
        management, based on risk assessments and availability of resources.

1.c.    Justification. In response to the President’s Management Agenda, DoD
        established a goal of achieving an unqualified audit opinion; the PDUSD(P&R)
        also took the initiative to achieve the same for the nonappropriated funds Program
        Groups under its purview. The PDUSD(P&R) wants consolidated financial
        statements for each Program Group at the Military Service level audited.
        Although current guidance provides that all NAFIs with annual revenues or
        expenses that exceed $7 million are subject to annual financial audits, the
        guidance does not discuss the need to have annual financial statement audits for
        each of the consolidated Program Groups, as defined by DoD Instruction 1015.14,
        section 4.3. Each of the Military Services has a unique corporate structure that
        establishes the number of NAFIs for each Program Group, but, on a stand-alone
        basis, many of these NAFIs have income or expenses that are below the required
        threshold for an annual financial audit. Our research documented the Program
        Group’s audited financial statements for each exchange and for most of the
        Marine Corps and Navy Program Groups. However, with the exception of Army
        and Air Force Exchange Service, the Army and Air Force failed to produce any
        audited consolidated financial statements for each Program Group at the Military
        Service level because the current guidance permits it. The change to DoD
        Instruction 7600.6 will require the Army and the Air Force to comply with the
        intention of PDUSD(P&R) to obtain audited consolidated Program Group
        financial statements, in accordance with the President’s Management Agenda.


30
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to Guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.



                                                 46
2.a.    Paragraphs E2.1.3 and E.2.1.3.1. Although both paragraphs refer to financial
        audit(s), paragraph E.2.1.3.2 refers to audited financial statements.

2.b.    Recommended Change. Inserting the word “statement” after the word
        “financial” in paragraph E2.1.3 and E.2.1.3.1.

2.c.    Justification. To be consistent within DoD Instruction 7600.6, section E.2.1.3,
        the word “statement” should be inserted after the word “financial” in
        sections E.2.1.3 and E.2.1.3.1.


L.      DoD Instruction 1015.12, “Lodging Program Resource
        Management,” October 30, 1996
1.a.    Page 1, Reference (d). (d) DoD Directive 1015.1, “Establishment, Management,
        and Control of Nonappropriated Fund Instrumentalities,” August 19, 1981.

1.b.    Recommended Change. (d) DoD Instruction 1015.14, “Establishment,
        Management, and Control of Nonappropriated Fund Instrumentalities and
        Financial Management of Supporting Resources” November 22, 2005. 31

1.c.    Justification. DoD Directive 1015.14 canceled DoD Directive 1015.1 which, in
        turn, was canceled by DoD Instruction 1015.14. Therefore, DoD
        Instruction 1015.12 is using a DoD directive that no longer exists as a basis for
        some of its requirements. To preserve the integrity of this instruction, DoD needs
        to update reference (d) of this instruction with DoD Instruction 1015.14.

2.a.    Page 1, Paragraph 2.1. (including the Coast Guard when it is not operating as a
        Military Service in the Navy by agreement with the Department of
        Transportation)

2.b.    Recommended Change. The reference to the Department of Transportation
        should be substituted with the Department of Homeland Security.

2.c.    Justification. The Coast Guard no longer falls under the Department of
        Transportation during peacetime; it is part of the Department of Homeland
        Security.

3.a.    Page 11. Paragraph. 5.2.6. Submit all management and financial reports to the
        Assistant Secretary of Defense (Force Management Policy) reflecting personnel
        and financial management data in accordance with DoD
        Instructions 1015.10, 1015.1, 7000.12, 1330.20 and DoD 7000.14-R, volume 13
        (references (b), (d), (e), (f), and (g)).




31
  The DoD Instruction 1015.15 is being revised and will cancel DoD Instruction 1015.14 when it is
published. Any suggested changes to guidance with a reference to the DoD Instruction 1015.14 should be
substituted with DoD Instruction 1015.15 at the time of publication.



                                                  47
3.b.   Recommended Change. Submit all management and financial reports to the
       Assistant Secretary of Defense (Force Management Policy) reflecting personnel
       and financial management data in accordance with DoD
       Instructions 1015.10, 1015.14, 1330.20 and DoD 7000.14-R, volume 13
       (references (b), (d), (e), (f), and (g)). The PDUSD(P&R) should also consider
       whether to add DoD Instruction 1015.15 as a reference in this paragraph.

3.c.   Justification. DoD Instruction 1015.1 is not referenced in this document;
       reference (d), which is identified in this paragraph, is for DoD Directive 1015.1.
       Therefore, the auditors concluded that this paragraph erroneously refers to DoD
       Instruction 1015.1, when it should refer to DoD Directive 1015.1. Furthermore,
       as previously stated, DoD Directive 1015.1 was canceled by DoD
       Directive 1015.14 and, in turn, was canceled by DoD Instruction 1015.14.
       Therefore, in the auditors’ opinion, the reference to DoD Directive 1015.1 should
       be substituted with DoD Instruction 1015.14. In addition, DoD Instruction
       7000.12, “Financial Management of Morale, Welfare, and Recreational
       Activities,” May 27, 1987, was canceled and incorporated into DoD 7000.14. As
       a result, the auditors concluded that the reference to DoD Instruction 7000.12
       paragraph 5.2.6 should be eliminated. The PDUSD(P&R) should consider adding
       a reference to DoD Instruction 1015.15, because it has many requirements related
       to reporting on DoD NAFIs.

4.a.   Page 14, Reference (e). (e) DoD Instruction 7000.12, “Financial Management of
       Morale, Welfare, and Recreational Activities,” May 27, 1987.

4.b.   Recommended Change. (e) DoD 7000.14-R, “Financial Management
       Regulation,” current edition.

4.c.   Justification. Enclosure 1 of DoD Instruction 7000.14, “DoD Financial
       Management Policy and Procedures,” November 15, 1992, states that DoD
       Instruction 7000.12 was canceled and incorporated into the DoD FMR.
       Therefore, DoD Instruction 1015.12 is using a DoD instruction that no longer
       exists as a basis for some of its requirements. To preserve the integrity of this
       instruction, DoD needs to update reference (e) of this instruction with the
       DoD FMR.




                                            48
Appendix E




             49
Suggested Changes by the Office of the Inspector General of the Department of Defense
to DoD “Financial Management Regulation, volume 13, Nonappropriated Funds Policy
and Procedures,” January 2004, Under the Purview of the Office of the Under Secretary
of Defense (Comptroller)/Chief Financial Officer.

                                         Overall Comments

The Principal Deputy Under Secretary of Defense (Personnel and Readiness)
(PDUSD[P&R]) is responsible for nonappropriated fund policy for the DoD Military
Morale, Welfare, and Recreation programs, military exchange services, and other
authorized Nonappropriated Fund Instrumentalities and Related Activities (NAFI)s.
Further, the PDUSD(P&R) has the responsibility to develop, promulgate, and monitor
compliance with the policy and other guidance for the proper administration of NAFIs
and management of their resources. The Office of the Under Secretary of Defense for
Personnel and Readiness (Policy Office) performs an annual review of the NAFI
consolidated Program Group financial statements (Report(s)) 32 forwarded to their office
by the Military Services. During the Policy Office review of the FY 2004 Reports, 33
officials discovered unreconcilable equity transfers between headquarters and field
activities; noncompliance with DoD accounting policy for NAFI construction-in-
progress; and prior period adjustments. Based on the findings and in response to the
President’s Management Agenda of establishing a goal of achieving an unqualified audit
opinion, the Policy Office took the initiative to achieve the same for the nonappropriated
funds Program Groups 34 under its purview. The Policy Office requested that auditors
from the DoD Office of the Inspector General (DoD OIG) review the financial reporting
practices for NAFI. The review covered four primary areas: DoD policies, accounting
for construction-in-progress, eliminating entry transactions between headquarters and
installations or regions and between headquarters funds, and prior period adjustments.

As part of the agreed-upon procedures between the Policy Office and the DoD OIG, we
reviewed the requirements in the DoD 7000.14, “Financial Management Regulation
(FMR), volume 13, Nonappropriated Funds Policy and Procedures,” January 2004, that
affect the financial reporting and the ability of DoD NAFIs to attain unqualified audit
opinions on the consolidated financial statements by the Program Groups for each
Military Service. The DoD FMR, volume 13, is under the purview of the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer (OUSD(C)/CFO).
The following are the DoD OIG suggested changes to DoD FMR, volume 13 that will
improve financial reporting and assist the Military Services in obtaining unqualified audit
opinions on their Program Groups’ consolidated financial statements.
32
   The Military Services refer to these Reports as 1015.15 Submissions, so for the purposes of this report we
will refer to these documents as Report(s).
33
  DoD Instruction 1015.15, “Procedures for Establishment, Management, and Control of Nonappropriated
Fund Instrumentalities and Financial Management of Supporting Resources,” May 25, 2005, paragraph
5.5.2 states the following: “A consolidated financial and management report shall be prepared annually for
each Military Service and Joint Service NAFI. Each consolidated report shall contain the financial
statements and reports specified at enclosure 7. Ten copies of the annual report shall be submitted to the
PDUSD(P&R) within 120 days following the close of the Program Group fiscal year. The reports shall be
based on or be the basis of annual financial statements that comply with the audit requirements of DoD
Instruction 7600.6 (reference (ae)).”
34
   DoD Instruction 1015.14, paragraph 4.3, provides that DoD programs or activities and their supporting
NAFIs are classified into one of six Program Groups which are Military Morale, Welfare, and Recreation
(MWR), Armed Services Exchange Programs, Civilian MWR, Lodging Program, Supplemental Mission
Funds, and Special Purpose Central Funds.



                                                     50
A.     DoD “Financial Management Regulation, Volume 13, Chapter 1,
       Nonappropriated Fund Accounting,” January 2004
1.a.   DoD FMR, Volume 13, Chapter 1, Page 1-5, Section 010202 E. Materiality.
       “Materiality refers to whether the information is significant enough to make a
       difference to a reasonable person who relies on the information. For example, a
       decision not to disclose information in the financial statements may be made if the
       amounts involved are too small to make a difference or affect the reliability of the
       information. In addition to magnitude, the nature of the item shall be considered
       when making a materiality judgment. Report any information that is material in
       the financial statements.”

1.b.   Recommended Change. “Materiality refers to whether the information is
       significant enough to make a difference to a reasonable person who relies on the
       information. For example, a decision not to disclose information in the financial
       statements may be made if the amounts involved are too small to make a
       difference or affect the reliability of the information. For reporting purposes that
       require the level of materiality to be quantified, materiality shall be defined as
       1 percent of the total assets in the balance sheet for each NAF activity. For those
       NAF activities required to report on a consolidated basis, the threshold of
       materiality shall be 1 percent of the assets in the consolidated balance sheet.”
       This threshold should not be included in the statement of work for external audits.

1.c.   Justification. During the course of the NAFI research project, the DoD OIG was
       advised by the responsible officials of each Military Service that DoD needed to
       establish a specific methodology to compute the threshold for materiality.
       Financial management decisions are different at each of the Military Services,
       based on their interpretation of materiality. Because DoD is a capital-intensive
       entity, the assets provide a consistent base across the reporting entities. As a
       result, all reporting entities will use the assets for computing materiality. In their
       FY 2005 planning, the DoD OIG established 1 percent of the asset base as the
       level of materiality for testing. The 1 percent materiality threshold should not be
       used in developing a Statement of Work (SOW) for an Independent Public
       Accounting (IPA) firm and must be clearly described as a threshold established
       by the PDUSD(P&R) that applies to internal reporting.

1.d.   The 1 percent materiality threshold should not be used in the SOW because it
       does not identify whether it applies to planning, design, or test materiality, and the
       threshold base may not be appropriate for the various types of reporting entities.
       Further, by establishing a 1 percent materiality threshold in the SOW, the IPA
       may consider it to be a scope limitation. For SOW purposes, the PDUSD(P&R)
       or OUSD(C)/CFO may want to include a requirement in both the DoD
       Instruction 1015.15, “Establishment, Management, and Control of
       Nonappropriated Fund Instrumentalities and Financial Management of Supporting
       Resources,” (currently in coordination) or DoD “FMR, volume 13, chapter 10,
       Miscellaneous,”      August 1994, stating that the SOW must require the IPA to
       follow the current version of the methodology that the General Accountability
       Office and the President’s Council on Integrity and Efficiency Financial Audit
       Manual uses.

1.e.   In addition, the PDUSD(P&R) or OUSD(C)/CFO (Policy Offices) could establish
       the 1 percent materiality threshold for internal reporting. The Policy Offices
       could also establish an internal reporting process requiring entities to report


                                             51
       certain adjustments to them as part of management reports. However, the Policy
       Offices must clarify that the threshold does not preclude entities from making
       necessary adjustments to financial statements for transactions that may fall below
       the threshold. The Policy Offices must also acknowledge that the adjustments
       that fall below its established threshold may be material in the aggregate.

2.a.   DoD FMR, Volume 13, Chapter 1, Page 1-6, Section 010203, paragraph B.
       Generally Accepted Accounting Principles (GAAP) Hierarchy. “A GAAP
       hierarchy has been established that identifies five categories or sources of GAAP
       (listed below in descending order of importance).

       1.) Officially established accounting principles that consist of Financial
       Accounting Standards Board (FASB) Statements of Financial Accounting
       Standards and Interpretations, Accounting Principles Board (APB) Opinions, and
       American Institute of Certified Public Accountants (AICPA) Accounting
       Research Bulletins.

       2.) The FASB Technical Bulletins and, if cleared by the FASB, AICPA Industry
       Audit and Accounting Guides and AICPA Statements of Position.

       3.) The AICPA Accounting Standards Executive Committee promulgations that
       have been cleared by the FASB and consensus positions of the FASB Emerging
       Issues Task Force.

       4.) The AICPA accounting interpretations and implementation guides (“Qs and
       As”) published by the FASB staff, and practices that are recognized widely and
       prevalent either generally or in the industry.

       5.) Other accounting literature, including FASB Concepts Statements; AICPA
       Issues Papers; International Accounting Standards Committee Statements;
       Government Accounting Standards Board (GASB) Statements, Interpretations,
       and Technical Bulletins; pronouncements of other professional associations or
       regulatory agencies; AICPA Technical Practice Aids; and accounting textbooks,
       handbooks, and articles.”

2.b.   Recommended Change. The Policy Offices should determine whether the NAFI
       accounting practices must comply with the accounting standards promulgated by
       the FASB or by the Federal Accounting Standards Advisory Board (FASAB) and
       revise the paragraph accordingly.

2.c.   Justification. The FASAB accounting principles are also considered to comply
       with GAAP as defined in American Institute of Certified Public Accountants
       (AICPA) Codification of Auditing Standards, AU 411.14. Federal entities can
       rely on FASB pronouncements, if the FASAB made those pronouncements
       specifically applicable to Federal Government entities. Further, the DoD FMR,
       volume 13, chapter 1, Section 010203, paragraph B, “GAAP Hierarchy,” only
       identifies FASB as being part of the GAAP hierarchy, which may indicate that
       DoD intended that the NAFIs should use FASB accounting principles. It should
       be stated that the FASAB website states the following in relation to GAAP
       hierarchy:
              The AICPA Council designated FASAB as the body that establishes
              accounting principles for Federal entities. The AICPA’s hierarchy of
              generally accepted accounting principles in Statement of Auditing



                                              52
              Standards (SAS) No. 91, The Federal GAAP Hierarchy, governs what
              constitutes GAAP for U.S. Government reporting entities. The
              hierarchy lists the priority sequence of sources that an entity should
              look to for accounting and reporting guidance.

3.a.   DoD FMR, Volume 13, Chapter 1, Page 1-8, Section 0104. “ACCOUNTING
       PERIOD. The accounting period for the DoD NAF organizations (except the
       Exchange Services) as set by DoD Instruction 7000.12, “Financial Management
       of Morale, Welfare, and Recreational Activities,” begins October 1 of each year
       and ends September 30 of the next year. The Under Secretary of Defense
       (Comptroller) shall approve exceptions in writing.

3.b.   Recommended Change. The reference to DoD Instruction 7000.12, “Financial
       Management of Morale, Welfare, and Recreational Activities,” May 27, 1987,
       should be removed from the section because it was canceled. Therefore, this
       section should just either state the requirement for the accounting period or refer
       to DoD Instruction 1015.15, which states the same requirement that appears in
       this section.

3.c.   Justification. DoD Instruction 7000.12 was canceled and incorporated into
       DoD FMR. Therefore, section 0104 of the DoD FMR refers to an instruction that
       no longer exists, and its requirements were incorporated into the DoD FMR.
       Therefore, to preserve the integrity of this regulation, the reference to DoD
       Instruction 7000.12 should either be eliminated or substituted with a reference to
       DoD Instruction 1015.15.


B.     DoD “FMR, Volume 13, Chapter 2, General Ledger and Coding
       Structure,” August 1994
1.a.   DoD FMR, Volume 13, Chapter 2, Page 2-1, Par. 0201.
       “NONAPPROPRIATED FUND ACCOUNTING CLASSIFICATION CODES.
       The Defense Finance and Accounting Service is developing a uniform system for
       coding transactions to insure consistency in financial management procedures as
       well as flexibility in application to either manual or mechanized accounting
       records in the NAF area. When the standard general ledger account code
       structure is completed and approved it will be incorporated in this chapter. In the
       meantime, accounting offices will continue to use their current account code
       structure until further notice.”

1.b.   Recommended Change. DoD FMR, volume 13, chapter 2 needs to be rewritten
       to include a uniform chart of accounts that all of the DoD NAFIs will be required
       to use. To maintain consistency and to make the transition to a NAFI standard
       chart of accounts easier, DoD should base the new NAFI standard chart of
       accounts on the most current version of the Armed Service Exchange standard
       chart of accounts, which was distributed by the Deputy Under Secretary of
       Defense for Military Community and Family Policy (DUSD(MC&FP)).

1.c.   Justification. DoD NAFIs are using at least four different charts of accounts.
       The Army’s chart of accounts appears in the DoD FMR, volume 13, Appendix A.
       The Department of the Navy’s (Navy and Marine Corps) chart of accounts
       appears in the DoD FMR, volume 13, Appendix C. Furthermore, Navy NAFIs
       that fall under the purview of the Commander, Navy Installations Command use
       the Recreation and Mess Central Accounting System User Handbook FY 2006


                                               53
       Edition, dated October 2005, which includes its own chart of accounts. In
       addition, the Air Force has a separate chart of accounts for its NAFIs that were
       published in Air Force Manual 34-214, “Procedures for Nonappropriated Funds
       Financial Management and Accounting,” February 14, 2006. On June 1, 2005,
       the DUSD(MC&FP) published the most current version of the Armed Service
       Exchange’s standard chart of accounts. The discovery of these five charts of
       accounts led the auditor to review them and later determine that DoD NAFIs were
       using at least five different charts of accounts; thus, in our opinion, DoD NAFIs
       are not using consistent chart of accounts.

       Additionally, during a meeting with representatives of the Policy Offices and the
       DoD OIG on June 27, 2006, the DoD OIG suggested eliminating the Army, Navy,
       and Air Force appendices. The OUSD(C)/CFO agreed to eliminate those three
       appendices, but stated that the FMR was not specific. As a result, the DoD OIG
       concluded that to make the DoD NAFIs accounting information both comparable
       and consistent, as defined by the DoD FMR, volume 13, chapter 1, the
       OUSD(C)/CFO should implement a uniform chart of accounts for all of the DoD
       NAFIs. To maintain consistency and to make the transition to a standard NAFI
       chart of accounts easier, DoD should base the new NAFI standard chart of
       accounts on the most current version of the Armed Service Exchange’s standard
       chart of accounts.

2.a.   Requirement for the NAFIs to use the United States Standard General
       Ledger (USSGL).

2.b.   Recommended Change. The OUSD(C)/CFO should either develop a uniform
       chart of accounts for the NAFIs that is based on the most current version of the
       Armed Service Exchange’s standard chart of accounts or develop a hybrid
       uniform chart of accounts that is based on the USSGL. In addition, the Policy
       Offices should come to a consensus on what the uniform standard chart of
       accounts will be for all NAFIs and include it in the DoD FMR, volume 13,
       chapter 2 and DoD Instruction 1015.15.

2.c.   Justification. The OUSD(C)/CFO informed the DoD OIG that it planned to
       implement a standard chart of accounts based on the USSGL. However, the
       PDUSD(P&R) informed the DoD OIG that the Armed Service Exchanges are not
       bound by the DoD FMR, volume 13. As a result, if the OUSD(C)/CFO includes a
       requirement for the DoD NAFIs to use the USSGL, then all of the NAFIs except
       for the exchanges will be obligated to implement this change. Therefore, DoD
       could potentially have two separate uniform standard general ledgers for its
       NAFIs, which would create conflict between the policies. To prevent this
       conflict, the Policy Offices should coordinate their implementation of the new
       uniform chart of accounts, and include it in the DoD FMR, volume 13, chapter 2
       and the DoD Instruction 1015.15. It should also be noted that some of the
       USSGL accounts might not apply to the NAFIs, while others might not satisfy the
       NAFIs needs because they are revenue generating entities rather than budgeting
       entities like the majority of the activities that follow the USSGL. The DoD OIG
       auditors suggest that OUSD(C)/CFO implement either a hybrid uniform chart of
       accounts based on the USSGL or use the chart of accounts that the exchanges
       currently use to facilitate the transition from multiple charts of accounts to a
       single uniform chart of accounts.




                                           54
C.     DoD “FMR, Volume 13, Chapter 3, Assets,” August 1994
1.a.   DoD FMR, Volume 13, Chapter 3, Page 6, Section 030301, Paragraph A.
       “however, interest charges should not be capitalized.”

1.b.   Recommended Change. Material amounts of interest paid also need to be
       capitalized as part of the acquisition cost of a fixed asset.

1.c.   Justification. The Statement of Federal Financial Accounting Standard (SFFAS)
       No. 6 states that material amounts of interest paid also need to be capitalized as
       part of the acquisition cost of the fixed asset. SFFAS No. 6 defines “interest cost”
       “as any interest paid by the reporting entity directly to providers of goods or
       services related to the acquisition or construction of PP&E.” Therefore, we
       concluded that the DoD FMR, volume 13, chapter 3 conflicts with SFFAS No. 6.
       As a result, we suggest that the DoD FMR, volume 13, chapter 3 be rewritten to
       match the requirements found in SFFAS No. 6.

2.a.   Page 6, Section 030301, Paragraph A, Item 2. “Self-Constructed Assets. If
       fixed assets are built or manufactured by the NAFI, all costs incurred, materials,
       permits, taxes, insurance and overhead costs should be capitalized in accordance
       with the appropriate appendices.”

2.b.   Recommended Change. This paragraph should read as follows: “If fixed assets
       are built or manufactured by the NAFI, all costs incurred, materials, permits,
       taxes, insurance, and overhead costs should be capitalized in either a
       construction-in-progress (if the asset is real property) or work-in-progress (if the
       asset is personal property) account. Upon completion, all of the accumulated
       costs will be transferred to the appropriate fixed-asset account.”

2.c.   Justification. The current reference to the Military Department Appendices
       gives the Military Services the authority to arbitrarily develop guidance on the
       capitalization of self-constructed assets. However, to ensure both comparability
       and consistency, as defined by the DoD FMR, volume 13, chapter 1, of the
       accounting information generated by the NAFIs, the OUSD(C)/CFO needs to
       establish uniform guidance for capitalizing self-constructed assets, and the
       guidance in question must follow the standards set by either FASB or FASAB.
       Furthermore, SFFAS No. 6 states: “In the case of constructed PP&E, the PP&E
       shall be recorded as construction work in process until it is placed in service, at
       which time the balance shall be transferred to general PP&E.” Therefore, the
       costs listed in section 030301 for self-constructed assets should be capitalized in
       either a construction-in-progress (if the asset is real property) or work-in-progress
       (if the asset is personal property) account, while it is under construction. After
       the assets in question have been built, then either the construction-in-progress or
       the work-in-progress account should be credited, and the appropriate asset
       account should be debited. In addition, during a meeting with representatives of
       the policy offices and the DoD OIG, on June 27, 2006, the DoD OIG suggested
       that the Army, Navy, and Air Force appendices should be eliminated. The
       OUSD(C)/CFO agreed to eliminate the three appendices, but stated that the DoD
       FMR was not specific. As a result, the existing reference to the appendices will
       have to be removed, since OUSD(C)/CFO stated that the Military Department
       appendices will be removed from the DoD FMR, volume 13. Therefore, the
       auditors concluded that if OUSD(C)/CFO carries on with its plan to remove the
       Military Departments’ appendices, then it will be forced to change the references


                                            55
       in DoD FMR, volume 13, chapter 3. (The DoD FMR includes a consistent
       erroneous reference to Service Appendices, when in fact it refers to the three
       Military Department Appendices).

3.a.   DoD FMR, Volume 13, Chapter 3, Page 10, Section 030301, Paragraph I,
       Bullet 1.b. “Estimate the Useful Life of the Asset. A reliable source for
       determining the useful life of the asset is the experience with similar assets.”

3.b.   Recommended Change. To maintain consistency across the DoD,
       OUSD(C)/CFO should include an assets table in this chapter for DoD Recovery
       Periods for Depreciable General PP&E that mirrors the one in DoD FMR,
       volume 4, chapter 6. In addition, this schedule should supersede the one that
       appears in the DUSD(MC&FP) Memorandum, “DoD Nonappropriated Fund
       Instrumentalities (NAFI) Financial Reports,” June 1, 2005, which applies only to
       exchanges.

3.c.   Justification. Because the current version of the DoD FMR, volume 13,
       chapter 3, lacks a Recovery Period (useful lives) for Depreciable Assets Schedule,
       the Military Services designed their own. As a result of the lack of standardized
       guidance, each Military Service and, in many instances, individual NAFIs use
       varying useful lives for the same type of asset. DoD is not applying consistent
       useful lives to all of its long-lived assets. Therefore, the information being
       reported in the financial statements of the DoD NAFIs is not comparable; thus the
       users of the financial statements cannot compare a given NAFI performance
       against any of the other NAFIs that operate within DoD. In conclusion, if DoD
       wishes to have consistent accounting policies for depreciation for the entire
       agency, it should use the same schedule for useful lives that appears in the DoD
       FMR, volume 4, chapter 6 for all of its capitalized assets including the ones that
       are managed by NAFIs.

4.a.   DoD FMR, Volume 13, Chapter 3, Page 10, Section 030301, Paragraph I,
       Bullet 1.c. “Estimate the Salvage Value for the Asset. The value, if any,
       remaining at the end of an asset’s useful life may, if allowed by the appropriate
       appendices, be subtracted from the acquisition cost of the asset before computing
       depreciation.”

4.b.   Recommended Change. The DoD FMR, volume13, chapter 3 should include
       the same requirements for salvage value that appear in the DoD FMR, volume 4,
       chapter 6: “The salvage value, also known as the residual or scrap value, is the
       amount that would be expected to be obtained from selling the asset at the end of
       its useful life, but only when such proceeds (from recycle, resale, and salvage) are
       permitted to be retained and used by the DoD Component. Typically, personal
       property, for example, vehicles, ADP and equipment, will not have a salvage
       value. If the asset is to be traded in on a new asset, the salvage value is the
       expected trade-in value. For purposes of computing depreciation, real property
       assets such as buildings, facilities and structures do not have salvage values.”

4.c.   Justification. The DoD FMR, volume 13, chapter 3 does not specify the amount
       to be used as salvage value during the calculation of the depreciation of long-
       lived assets. As a result, each Military Service is allowed to set varying salvage
       values for all of the assets that DoD NAFIs managed. Therefore, under the
       existing regulation, each Military Service can use a salvage value for a given type
       of asset, while another Military Service can give the very same type of asset a
       different salvage value. The situation becomes even more complex if the Military

                                            56
       Services assign different salvage values for the same type of asset within the
       Military Service or Program Group. If the NAFIs are allowed to modify the
       salvage values as they see fit, the depreciation expense being reported in the
       financial statements could be manipulated in such a way that the bottom line of
       the NAFIs would not accurately portray their financial performance during the
       fiscal year. In conclusion, if DoD wishes to have consistent accounting policies
       for depreciation across the entire agency, it should use the same salvage values
       that are described in the DoD FMR, volume 4, chapter 6 for all of its capitalized
       assets, including the ones that NAFIs managed.


D.     DoD “FMR, Volume 13, Chapter 5, Revenue,” August 1994
1.a.   DoD FMR, Volume 13, Chapter 5, Page 0, Section 0501, General, Last
       Sentence. “Revenue will be recorded in accordance with the appropriate Service
       appendix.”

1.b.   Recommended Change. The OUSD(C)/CFO should substitute the reference to
       the Service appendices with its own guidance on revenue recognition, which
       needs to agree with the standards set by either the FASB or the FASAB.

1.c.   Justification. The existing reference to the Service appendices authorizes the
       Military Departments to arbitrarily develop guidance on revenue recognition.
       However, to ensure the comparability and consistency of the accounting
       information generated by the NAFIs, as defined by the DoD FMR, volume 13,
       chapter 1, the OUSD(C)/CFO needs to establish uniform guidance on revenue
       recognition that follows the standards set by either FASB or FASAB. In addition,
       during a meeting with representatives of the Policy Offices and the DoD OIG on
       June 27, 2006, the DoD OIG suggested that the Army, Navy, and Air Force
       appendices should be eliminated. The OUSD(C)/CFO agreed to eliminate them,
       but stated that the DoD FMR was not specific. As a result, the existing reference
       will have to be removed, because the OUSD(C)/CFO stated that the Military
       Department appendices must be removed from the DoD FMR, volume 13.
       Therefore, the DoD OIG concluded that if OUSD(C)/CFO carries on with its plan
       to remove the Military Department appendices, it will be forced to change the
       reference in the DoD FMR, volume 13, chapter 5 for the appendices in question.


E.     DoD “FMR, Volume 13, Chapter 6, Expenses,” August 1994
1.a.   DoD FMR, Volume 13, Chapter 6, Page 0, Section 0601, General, Last
       Sentence. “Until further notice, expenses will be recorded in accordance with the
       appropriate Service appendix.”

1.b.   Recommended Change. The OUSD(C)/CFO should substitute the reference to
       the Service appendices with its own guidance on recording expenses, which must
       agree with the standards set by either the FASB or the FASAB.

1.c.   Justification. The current reference to the “Service” (Military Department)
       appendix authorizes the Military Departments to arbitrarily develop guidance on
       recording expenses. However, to ensure both comparability and consistency of
       the accounting information generated by the NAFIs, as defined by the DoD FMR,
       volume 13, chapter 1, the OUSD(C)/CFO needs to establish uniform guidance for


                                           57
       recording expenses, and the guidance in question must follow the standards set by
       either FASB or FASAB. In addition, during a meeting with representatives of the
       Policy Offices and the DoD OIG on June 27, 2006, the DoD OIG suggested that
       the Army, Navy, and Air Force appendices should be eliminated. The
       OUSD(C)/CFO agreed to eliminate them, but stated that the DoD FMR was not
       specific. As a result, the existing reference must be removed, because the
       OUSD(C)/CFO stated that the Military Department appendices must be removed
       from the DoD FMR, volume 13. Therefore, the DoD OIG concluded that if the
       OUSD(C)/CFO continues with its plan to remove the Military Department
       appendices, it will be forced to change the reference in DoD FMR, volume 13,
       chapter 6 for the appendices in question.


F.     DoD “FMR, Volume 13, Chapter 7, Financial Reporting,”
       August 1994
1.a.   DoD FMR, Volume 13, Chapter 7, Page 1, Section 070103. Financial
       Statements. “Financial Statements. The principal financial statements used to
       convey information to users are the statement of financial position or balance
       sheet, statement of operations or income and expense statement, and the statement
       of cash flows. These reports provide information on the financial performance
       and condition of the NAFI as follows:

       1.) The statement of financial position (or balance sheet) provides information
       about an activity’s economic resources, obligations, and equity. That information
       helps users identify the activity’s financial strengths and weaknesses and assess
       its liquidity and solvency.

       2.) The statement of financial position (or income and expense statement)
       provides information about the activity’s financial performance during a specified
       period of time.”

1.b.   Recommended Change. Paragraph 2 of this section should be rewritten as
       follows: The statement of operations (or income and expense statement) provides
       information about the activity’s financial performance during a specified period
       of time.
1.c.   Justification. The initial paragraph of this section identifies the “statement of
       operations” as an income and expense statement, while the same paragraph
       identifies the “statement of financial position” as the balance sheet. As a result,
       the DoD OIG concluded that bullet 2 of section 070103 erroneously refers to the
       income and expense statement as the statement of financial position. Therefore,
       to maintain consistency across section 070103, the reference to the “statement of
       financial position” should be replaced with “statements of operations.”

2.a.   DoD FMR, Volume 13, Chapter 7, Page 1, Section 070103. Financial
       Statements.

2.b.   Recommended Change. The policy offices should coordinate to determine if
       they would like to set specific guidance on the form and content of the DoD NAFI
       financial statements or use the DoD form and content.

2.c.   Justification. During this audit research project, the DoD OIG reviewed various


                                            58
       financial statements that the DoD NAFIs published, and discovered that they did
       not consistently include the same documents. Although all of the financial
       statements included the balance sheet, income and expense statement, and the
       cash flow statements, some NAFIs limited their financial statement to those three
       documents and the footnotes to the statements, while others included other
       documents within their financial statements. Therefore, to maintain uniformity
       among the NAFIs, the DoD OIG suggested that the Policy Offices coordinate to
       determine if they want to set specific guidance on the form and content of the
       DoD NAFI financial statements.

3.a.   DoD FMR, Volume 13, Chapter 7, Page 2, Section 070105. Cash Basis of
       Accounting. “Financial statements, reports, and other information from activities
       authorized to use the cash basis of accounting shall be prepared in accordance
       with generally accepted accounting principles. The statements differ from those
       described above.”

3.b.   Recommended Change. To maintain consistency and comparability of the
       financial information reported by NAFIs, as defined by the DoD FMR, volume
       13, chapter 1, and to clarify this regulation, section 070105 Cash Basis
       Accounting should be removed from the DoD FMR, volume 13, chapter 7.

3.c.   Justification. The statement “activities authorized to use the cash basis of
       accounting” implies that some NAFI activities are allowed to use the cash basis of
       accounting, while others are required to use other types of accounting basis
       (which are undefined in this chapter). It should be noted that the DoD FMR,
       volume 13, chapter 10 states that “NAFIs are required to use the accrual method
       of accounting unless specifically authorized by the DoD Components to use the
       cash method of accounting.” In addition, DoD FMR, volume 13, chapter 10 adds
       the following statement: “This section prescribes a uniform cash method of
       accounting and reporting system applicable to small NAFIs. These procedures
       represent a single entry cash basis system of accounting and prescribe statements
       which will reflect the financial condition of the various activities on a
       standardized basis.” However, because the DoD FMR, volume 13 requires some
       NAFIs to use the accrual method and allows “small” NAFIs to use the cash
       method of accounting at the same time, it causes the DoD NAFIs accounting
       methods to be inconsistent. In addition, the different accounting methods being
       used by the NAFIs will cause problems with consolidating the NAFI financial
       statements by Program Group.

3.d.   Also, AICPA Professional Standards AU Section 623, Special Reports (AU 623)
       identifies “cash receipts and disbursements basis of accounting and modifications
       of the cash basis having substantial support” as a comprehensive basis of
       accounting other than GAAP. Based on AU 623’s definition of comprehensive
       basis of accounting, the DoD OIG concluded that the cash basis of accounting is
       not considered GAAP. In addition, in the DoD OIG’s opinion, requiring financial
       statements, reports, and other information recorded using a comprehensive basis
       of accounting to comply with GAAP is a contradictory statement because the cash
       basis of accounting is not considered GAAP. Therefore, the sentence stating:
       “Financial statements, reports, and other information from activities authorized to
       use the cash basis of accounting shall be prepared in accordance with generally
       accepted accounting principles.” is contradictory. As a result, the OIG suggested
       that this section should be taken out of the DoD FMR, volume 13, chapter 7.



                                           59
4.a.   DoD FMR, Volume 13, Chapter 7, Page 3, Section 0703 RATIOS. “If
       requested, DFAS can provide as an example the following ratios.”

4.b.   Recommended Change. Instead of asking the NAFI managers to request copies
       of the ratios from the Defense Finance and Accounting Service (DFAS), the
       Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
       (OUSD((C)/CFO)) should include the formulas for all of the financial ratios that
       are discussed in this chapter.

4.c.   Justification. The existing version of the DoD FMR, volume13, chapter 7
       includes only brief definitions, some of which are vague, of many ratios, but it
       does not explain how many of them are calculated. Therefore, including the
       formulas for calculating the ratios will help to clarify some of the descriptions. In
       addition, because the DoD FMR, volume 13, chapter 7 is readily available to DoD
       employees on the OUSD(C)/CFO’s website, it would be easier for NAFI
       managers to access the ratio formulas on the OUSD(C)/CFO’s website instead of
       having to request the formulas from DFAS.

5.a.   DoD FMR, Volume 13, Chapter 7, Page 3, Section 070302. “It is referred to as
       working capital or net current assets. There is general rule that a current ratio
       of 1.5:1 is satisfactory. Like most generalities this one is subject to modification
       in certain specific cases.”

5.b.   Recommended Change. The OUSD(C)/CFO should either explain under which
       specific cases the general rule that a current ratio of 1.5:1 is satisfactory is subject
       to modification or remove the statement in question from the DoD FMR,
       volume 13, chapter 7.

5.c.   Justification. By stating that: “Like most generalities, this one is subject to
       modification in certain specific cases,” the DoD FMR, volume 13, chapter 7 is
       stating that the NAFIs are not required to maintain a current ratio of 1.5:1, thus
       the statement is not binding. In addition, DoD FMR, volume 13, chapter 7 states
       that the general rule is subject to modification in certain specific cases, but it fails
       to identify the specific cases. As a result, the NAFI managers do not know under
       which “certain specific cases” they are allowed to deviate from a current
       ratio of 1.5:1. Therefore, the sentence in question defeats its own purpose.

6.a.   DoD FMR, Volume 13, Chapter 7, Page 5, Section 070306. “Merchandise
       Inventory Turnover. A ratio of 1 to 1 is generally acceptable for food and bar
       operations. For all other sales operations, however, NAFI management may
       establish other goals.”

6.b.   Recommended Change. The OUSD(C)/CFO should either require a
       merchandise inventory ratio of 1 to 1 for all NAFIs that have merchandise, or
       state in the DoD FMR, volume 13, chapter 7 the value of the merchandise
       inventory ratio that, except for food and bar operations, all operations should
       maintain.

6.c.   Justification. To maintain consistency across all of DoD resale NAFIs, the DoD
       FMR, volume 13, chapter 7 should require all resale NAFIs to maintain a
       merchandise inventory ratio of 1 to 1. However, if the needs of the other DoD
       resale NAFIs differ greatly from the needs of food and bar operations, DoD FMR,
       volume 13, chapter 7 should require a turnover ratio for specific merchandise
       inventory for all other DoD resale activities.

                                              60
7.a.   DoD FMR, Volume 13, Chapter 7, Page 5, Section 070307. “Turnover of
       Working Capital. This turnover or ratio is composite of number of relationships
       (inventories, receivables, current liabilities, etc.). These various component
       elements should be analyzed individually to account for changes from period to
       period. The turnover of working capital is computed by dividing the net sales for
       the year by the average working capital.”

7.b.   Recommended Change. OUSD(C)/CFO should identify all of the components
       of the turnover for a working capital ratio and substitute the word “should” with
       “need to” or “have to.”

7.c.   Justification. This sentence is vague because it starts listing the elements of the
       turnover of working capital, but it does not identify all of them. In addition, the
       next sentence states that “various” elements exist, thus giving the impression that
       many elements of this ratio were left out; the chapter does not define the elements
       that form part of the working capital. As a result, the existing chapter does not
       provide sufficient information to DoD NAFI managers for them to properly
       calculate the turnover of working capital. It should also be noted that by using the
       word “should” in this section, OUSD(C)/CFO gives the impression that it is
       suggesting that the elements should be analyzed individually, instead of requiring
       the individual analysis of the elements in question. However, by substituting the
       word “should” with either of the words “need to” or “have to,” OUSD(C)/CFO
       will be stating clearly that NAFI managers are required to individually analyze
       the elements that make up the turnover of working capital.

8.a.   DoD FMR, Volume 13, Chapter 7, Page 5, Section 070401. “General. The
       frequency with which analytical data are furnished is of the utmost importance. It
       is not enough for management to know at the end of a year, or even a quarter, that
       costs are increasing more rapidly than revenues. The accountant must often use
       interim cost standards, ratios, or other devices, in presenting income statement
       data. Moreover, they must devise adequate methods of accruing items which may
       not be finally determined until the end of the fiscal year or later, but which are of
       vital importance in their effect on income.”

8.b.   Recommended Change. The OUSD(C)/CFO should state the frequency with
       which analytical data will be furnished to management. In addition, the
       OUSD(C)/CFO should list the specific methods that accountants are required to
       use to furnish the required analytical data. Finally, the last sentence should not
       state “they must devise adequate methods of accruing items;” instead, the DoD,
       FMR volume 13 should define the “adequate methods of accruing,” which must
       comply with generally accepted accounting principles GAAP or an accepted other
       comprehensive basis of accounting (OCBOA).

8.c.   Justification. The entire paragraph emphasizes the importance of providing
       management with data frequently, but it never states how frequently. The
       paragraph implies that providing the data in question in a yearly or quarterly basis
       might not be frequent enough, but it never actually states whether the data must
       be reported to management on a yearly or quarterly basis or even more frequently.
       As a result, NAFI accountants do not know how frequently they are required to
       provide analytical data to management. Therefore, the DoD FMR, volume 13,
       chapter 7 needs to state how frequently the accountants need to report analytical
       data to management. The statement that: “The accountant must often use interim
       cost standards, ratios, or other devices, in presenting income statement data” is
       vague, because it does not tell accountants precisely which “devices” or methods

                                            61
       are the ones that provide the necessary information to management. In addition,
       the sentence stating that: “they must devise adequate methods of accruing items,”
       gives the impression that accountants are allowed to devise their own
       methodology to adequately accrue transactions. In actuality, this sentence should
       require accountants to book transactions in accordance with GAAP except, if by
       using GAAP, their financial statements do not accurately portray the entities’
       financial posture or a legal requirement contradicts GAAP. In this case, this
       section should require the accountants to use an OCBOA in those instances when
       the institution cannot follow GAAP, and the entity should disclose the reason why
       it used the OCBOA in its financial statements.

9.a.   DoD FMR, Volume 13, Chapter 7, Page 6, Section 070402, Methods and
       Techniques, Bullet C. Analytical.

              A trend analysis should be made for each NAFI’s financial statement.
              The analysis of the balance sheet should compare actual to actual and
              the percentage of increase or decrease be shown. The analysis of the
              income statement for each activity should compare actual to actual and
              actual to the budgeted amounts. As with the balance sheet analysis,
              differences will be shown as a percentage. The analysis should be
              made by each activity for items such as; sales, cost of goods sold, labor
              expenses, net income, and all other revenue and expense items with a
              material financial effect on the activity.

9.b.   Recommended Change. The OUSD(C)/CFO needs to substitute the word
       “should” in this paragraph with “shall”. In addition, in the last sentence the
       OUSD(C)/CFO should either list all of the revenue and expense items that should
       be analyzed or include a monetary threshold or a methodology that the NAFIs can
       use to determine whether an item materially affects the NAFI financial
       statements. (See section I, paragraphs 1.a. through 1.e. for a discussion on
       materiality.)

9.c.   Justification. By using the word “should” in this paragraph, the DoD FMR,
       volume 13, chapter 7 gives the impression to the NAFI managers that it is just a
       suggestion that they follow the procedures, instead of conveying that the activities
       are required to comply with this guidance. As a result, the NAFIs will conclude
       that they are not required to comply with this section. To prevent any confusion
       and to help the NAFIs perform the desired analysis, this section should be
       rewritten to make it clear that the NAFIs must comply with this section of the
       DoD FMR, volume 13, chapter 7. In addition, the statement, “all other revenue
       and expense items with a material financial effect on the activity,” is vague,
       because it neither identifies the items that should be analyzed nor specifies a
       methodology that can determine which items have a material financial effect.
       Therefore, the last sentence of this paragraph needs to either list the specific items
       to be analyzed or include a monetary threshold or a methodology that the NAFIs
       can use to determine whether an item has a material effect on the activity.


G.     DoD “FMR, Volume 13, Chapter 8, Payroll,” August 1994
1.a.   DoD FMR, Volume 13, Chapter 8, Page 0, Section 0801. General. “Until the
       Nonappropriated Fund Central Payroll System (NAFCPS) is implemented, all



                                                 62
       NAF payroll offices should follow the procedures in the appropriate Service
       appendix.”

1.b.   Recommended Change. The DoD FMR, volume 13, chapter 8 should either
       substitute the reference to the “Service appendix” with all of the procedures
       included in the NAFCPS within this chapter or delete the entire sentence.

1.c.   Justification. The current reference to the “Service appendix” allows each
       Military Department to treat similar transactions differently; the DoD FMR
       erroneously refers to these appendices as Service appendices, when in fact they
       refer to the three Military Departments. As a result, the financial statements
       generated by each Military Service will not be comparable or consistent, as
       defined by DoD FMR, volume 13, chapter 1, and will prevent DoD management
       from being able to compare the performance of the NAFIs of one Military Service
       against the NAFIs of another Military Service. In addition, the OUSD(C)/CFO
       informed the DoD OIG of its intent to remove the Military Department
       appendices from the DoD FMR. Once the Military Department appendices are
       removed from the DoD FMR, this chapter will be instructing the Military
       Departments to comply with requirements that no longer exist. Therefore, it is the
       conclusion of the DoD OIG that to maintain the comparability and uniformity of
       the NAFI financial statements and the integrity of this regulation, the reference to
       the “Service appendix” must be either substituted with a DoD requirement or
       deleted altogether.


H.     DoD “FMR, Volume 13, Chapter 9, Internal Controls.” August
       1994
1.a.   DoD FMR, Volume 13, Chapter 9, Page 3, Section 090302, Bullet B, Item 2
       Reconciliation. “Regularly scheduled reconciliation of control and subsidiary
       accounts and records for such things as cash receipts, accounts receivable,
       inventories, and accounts payable shall be performed to substantiate and maintain
       the accuracy of account postings and balances by checking the agreement
       between the sum of the detail in subsidiary accounts with the general ledger
       control balances.”
1.b.   Recommended Change. The phrase “regularly scheduled” should be replaced
       with a statement similar to yearly, quarterly, or monthly to clarify the
       requirements so that all DoD Components perform reconciliations on a consistent
       basis.

1.c.   Justification. The requirement gives DoD Components too much flexibility
       when performing the required reconciliations. For example, one DoD Component
       could perform its regularly scheduled reconciliations once a year, while another
       might perform them every quarter. This situation could lead to the reconciliations
       not being performed on a timely basis and procedures not being followed
       consistently across DoD. As a result, the DoD OIG concluded that the
       OUSD(C)/CFO should require all DoD Components to perform their
       reconciliations on a specific basis (yearly, quarterly or monthly) so that the DoD
       NAFIs perform their reconciliations uniformly.

2.a.   DoD FMR, Volume 13, Chapter 9, Page 3, Section 090302, Bullet B, Item 3,
       Reconciliation. “General ledger property control accounts shall be periodically


                                           63
       reconciled to detailed property records.”



2.b.   Recommended Change. The term “periodically” should be substituted with a
       measurable term such as yearly, quarterly, or monthly.

2.c.   Justification. The sentence is too vague, thus allowing the DoD Component and
       each individual NAFI to determine the frequency with which they will perform
       the reconciliations. As a result, the way in which this requirement was written led
       to a lack of uniformity and possibly defeated the purpose of this requirement
       because many years might pass before the NAFIs perform the required
       reconciliations. Therefore, it is the recommendation of the DoD OIG that the
       OUSD(C)/CFO replace the term “periodic” with a requirement to perform the
       reconciliations on a yearly, quarterly, or monthly basis.

3.a.   DoD FMR, Volume 13, Chapter 9, Page 3, Section 090302, Bullet B, Item 4,
       Reconciliation. “Accounting records shall be adjusted to be in agreement with
       the results of physical inventories when they are taken.”

3.b.   Recommended Change. This section should either state when the inventories in
       question shall be conducted (by item category) or refer to DoD FMR, volume 13,
       chapter 3 that discusses the frequency of physical inventories.

3.c.   Justification. Currently, the requirement is vague because it does not state how
       often the physical inventories shall be conducted. Therefore, this section should
       either state how frequently the physical inventories in question shall be conducted
       or include a reference to volume 13, chapter 3 that discusses the frequency of
       physical inventories.

4.a.   DoD FMR, Volume 13, Chapter 9, Page 4, Section 090302, Bullet B, Item 5,
       Reconciliation. “The results of periodic physical counts of cash and cash items
       shall be reconciled to recorded amounts and any discrepancies adjusted.”

4.b.   Recommended Change. OUSD(C)/CFO should substitute the term “periodic”
       with yearly, quarterly, or monthly.

4.c.   Justification. The current requirement is vague because it allows each NAFI to
       independently determine the frequency with which it will perform a physical
       inventory of its cash. Therefore, to establish clarity and maintain uniformity
       among the DoD NAFIs, this section should state how often the physical
       inventories of cash need to be performed (yearly, quarterly or monthly).

5.a.   DoD FMR, Volume 13, Chapter 9, Page 6, Section 090302, Bullet D, Item 1,
       Letter a Error Handling. “Corrections are made in a timely manner and reentered
       into the appropriate processing cycle,”

5.b.   Recommended Change. The term “in a timely manner” should be substituted
       with the word “immediately.”

5.c.   Justification. The term timely is open to interpretation, thus allowing different
       DoD NAFIs to determine how quickly the corrections need to be entered into the
       system. While conducting this audit research project, the DoD OIG came across
       one Military Service in which it had detected an error in its yearly 1015.15

                                           64
       submission, but would not report the correct information until the following year.
       Therefore, to prevent this type of situation from recurring, the OUSD((C)/CFO)
       should require the NAFIs to enter corrections into the accounting system
       immediately after discovering an error.

6.a.   DoD FMR, Volume 13, Chapter 9, Page 7, Section 090302, Bullet F, Item 3.
       Verifying File Data. “The need for periodic special reviews to verify file data
       shall be reduced where input controls are effective and when the examination of
       reports routinely produced by the system can be relied upon to serve this
       purpose.”

6.b.   Recommended Change. The OUSD((C)/CFO) should define the term
       “periodic” (yearly, quarterly or monthly) and should add a minimum time to
       which the “periodic reviews” can be reduced.

6.c.   Justification. This sentence is vague because it does not state how often the
       initial reviews in question should be performed, and it does not explain to what
       extent the reviews can be reduced (once a year or once every five years).
       Therefore, each NAFI can determine what is the adequate frequency to conduct
       the reviews. In addition, if the NAFIs conclude that the controls are effective,
       they can be scaled back to a more appropriate range of time. As a result, this
       regulation does not foster uniformity among the various NAFIs and it creates the
       opportunity for even less uniformity by allowing the reviews to be scaled back.
       The regulation is also silent on how much the frequency of the reviews could be
       minimized. Therefore, theoretically, the reviews could potentially be postponed
       for multiple years. It should also be noted that in an instance where the frequency
       of the reviews was reduced and the controls had deteriorated, the NAFIs would
       run the risk of being unable to detect the deterioration of the controls in a timely
       manner. As a result, the accuracy of the financial information being reported will
       be compromised.

7.a.   DoD FMR, Volume 13, Chapter 9, Page 8, Section 090302, Bullet G,
       Items 1 & 2. Reviews and Evaluations of the System in Operation. “Periodic
       reviews and tests of the accounting system shall be performed to ensure that the
       system and its controls and security features continue to meet user needs, perform
       as intended, and conform with applicable accounting standards.” “In certifying
       compliance with prescribed accounting principles, standards and related
       requirements as required by the Federal Managers’ Financial Integrity Act,
       transaction testing of the system in operation shall be performed.”

7.b.   Recommended Change. The DoD FMR, volume 13, chapter 9 should define the
       term “periodic” (yearly, quarterly or monthly) and state that the system must
       comply with the standards published by either the Federal Accounting Standards
       Advisory Board (FASAB) or the Financial Accounting Standards Board (FASB),
       depending on which set of standards the OUSD((C)/CFO) determines the NAFIs
       must follow.

7.c.   Justification. The existing requirement is vague and allows each NAFI to
       determine how often it tests the compliance of its standards. As a result, there is
       no uniformity across DoD in how often the NAFIs perform the test in question.
       DoD needs to establish testing frequency to determine whether the system is
       compliant with the current criteria. In addition, the OUSD((C)/CFO) needs to
       determine whether the NAFIs are obligated to follow the pronouncements
       published by either FASAB or FASB. If they are not, this sentence should

                                            65
       include a requirement to comply with FASAB.




8.a.   DoD FMR, Volume 13, Chapter 9, Page 11, Section 090302, Bullet J, Item 10.
       “Usefulness. Reports produced by the accounting system shall compare current
       and prior-period performance, and planned performance with actual performance
       in a variety of ways, including on a cash, accrual, or obligational basis.”

8.b.   Recommended Change. The references in this sentence to the cash and
       obligation basis of accounting should be eliminated.

8.c.   Justification. This section gives the impression that the DoD NAFIs have the
       option to maintain their accounting information using the cash, accrual, or
       obligational basis. However, the DoD FMR, volume 13, chapter 10 states that
       “NAFIs are required to use the accrual method of accounting unless specifically
       authorized by the DoD Components to use the cash method of accounting.”
       Therefore, this chapter of the DoD FMR contradicts chapter 10, which states that
       the only two bases of accounting allowed are the accrual and the cash bases.
       Furthermore, AU 623 identifies “cash receipts and disbursements basis of
       accounting and modifications of the cash basis having substantial support” as an
       Other Comprehensive Basis of Accounting other than GAAP. Based on AU
       623’s definition of comprehensive basis of accounting, the OIG concluded that
       the cash basis of accounting is not considered to be GAAP. Therefore, for the
       NAFIs financial reports and financial statements to comply with GAAP, they
       must follow the accrual basis of accounting.


I.     DoD “FMR, Volume 13, Chapter 10, Miscellaneous,” August 1994
1.a.   Page 0, Section 1003 Cash Method. “1003 CASH METHOD OF
       ACCOUNTING”

1.b.   Recommended Change. The Office of the Under Secretary of Defense
       (Comptroller)/Chief Financial Officer should remove this section from DoD
       FMR, volume 13, chapter 10.

1.c.   Justification. The DoD FMR, volume 13, chapter 10 states: “NAFIs are
       required to use the accrual method of accounting unless specifically authorized by
       the DoD Components to use the cash method of accounting.” It should also be
       noted that DoD FMR, volume 13, chapter 10 adds the following statement: “This
       section prescribes a uniform cash method of accounting and reporting system
       applicable to small NAFIs. These procedures represent a single entry, cash basis
       system of accounting and prescribe statements which will reflect the financial
       condition of the various activities on a standardized basis.” As a result, the DoD
       OIG concluded that the DoD FMR, volume 13, chapter 10 is instructing DoD
       NAFIs to use the accrual method of accounting unless specifically authorized by
       the DoD Components to use the cash method of accounting, thus allowing DoD
       NAFIs to use two different types of accounting methods.

       The use of two different accounting methods will affect the comparability and


                                           66
       consistency of the financial statements published by the DoD NAFIs. Therefore,
       DoD managers will be unable to compare the financial statements of NAFIs using
       the accrual method against NAFIs using the cash method. In addition, this
       section does not define the term “small NAFI,” and does not provide a
       methodology for measuring the size of a NAFI, thus the DoD community cannot
       determine whether a NAFI should either use the accrual method or the cash
       method. During the performance of this audit research project, the DoD OIG
       discovered instances where neither the accrual nor the cash method of accounting
       was being used. For example, the Army Civilian Morale, Welfare, and
       Recreation Program Group was using a single entry checkbook system.

       As a result of both the review of DoD FMR, volume 13, chapter 10 and the
       problems with the NAFIs accounting methods DoD-wide, the DoD OIG
       concluded that the financial statements of all the NAFIs should use the accrual
       basis of accounting to achieve comparability and the consistency. Finally, it
       should be noted that the cash basis of accounting is considered an OCBOA, thus
       it does not comply with GAAP. In conclusion, it is the opinion of the DoD OIG
       that to maintain uniformity and to comply with GAAP, all DoD NAFIs should use
       the accrual basis of accounting.


J.     DoD “FMR, Volume 13; Appendix A, Accounting Procedures for
       the Army,” August 1994; “Appendix B, Accounting Procedures
       for the Air Force,” August 1994; and “Appendix C, Accounting
       Procedures for the Navy,” August 1994
1.a.   DoD FMR, Volume 13, Appendixes A, B, and C.

1.b.   Recommended Change. Eliminate Appendices A, B, and C in the DoD FMR,
       volume 13.

1.c.   Justification. Each appendix prescribes accounting and financial management
       policy that is specific to the Army, Navy, and Air Force, for each Department that
       supplied the content. Therefore, this guidance as written allows the three Military
       Departments to conduct NAFI business inconsistently throughout DoD. In
       addition, during a meeting between the Policy Offices and the DoD OIG held
       June 27, 2006, the DoD OIG suggested that the Army, Navy, and Air Force
       appendices should be eliminated and a consistent format should be provided by
       the OUSD(C)/CFO. The OUSD(C)/CFO agreed to eliminate the three
       appendices.




                                           67
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Government Accountability Office
Office of Management and Budget




                                          68
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
   Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      69
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
Joseph A. Guba
Shanika K. Knight
Juan Ruiz-Sanchez
Carmen E. Pearlstein
Wilfredo Romero-Torres
James W. Fuller
Deloris Luddington
Jacqueline N. Pugh




                                   70
